<html>
<title> - [H.A.S.C. No. 114-118] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-118]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                    UPDATE ON THE F-35 JOINT STRIKE

                     FIGHTER PROGRAM AND THE FISCAL

                        YEAR 2017 BUDGET REQUEST

                               __________

                              HEARING HELD
                             MARCH 23, 2016

                                     
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    
  
  
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-078                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                           
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Bogdan, Lt Gen Christopher C., USAF, Program Executive Officer, 
  F-35 Joint Program Office......................................     4
Gilmore, Dr. J. Michael, Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................     1
Stackley, Hon. Sean J., Assistant Secretary of the Navy for 
  Research, Development and Acquisition..........................     6
Sullivan, Michael J., Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office..............     3

                                APPENDIX

Prepared Statements:

    Gilmore, Dr. J. Michael......................................    35
    Sanchez, Hon. Loretta, a Representative from California, 
      Ranking Member, Subcommittee on Tactical Air and Land 
      Forces.....................................................    33
    Stackley, Hon. Sean J., joint with Lt Gen Christopher C. 
      Bogdan.....................................................    87
    Sullivan, Michael J..........................................    67
    Turner, Hon. Michael R., a Representative from Ohio, 
      Chairman, Subcommittee on Tactical Air and Land Forces.....    31

Documents Submitted for the Record:

    Information Paper from Lt Gen Bogdan to Mr. Turner...........   113

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Duckworth................................................   134
    Mr. Jones....................................................   134
    Mr. Turner...................................................   125
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    .
UPDATE ON THE F-35 JOINT STRIKE FIGHTER PROGRAM AND THE FISCAL YEAR 
                          2017 BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                         Washington, DC, Wednesday, March 23, 2016.
    The subcommittee met, pursuant to call, at 11:28 a.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Mr. Turner. The subcommittee will come to order to receive 
testimony concerning the F-35 Joint Strike Fighter, the JSF, 
program. I want to welcome our panel of distinguished 
witnesses, Dr. Michael Gilmore, Director of Operational Test 
and Evaluation [OT&E]; Dr. Michael J. Sullivan, Director of 
Acquisition and Sourcing, Government Accountability Office 
[GAO], and a good southwest Ohioan; the Honorable Sean 
Stackley, Assistant Secretary of the Navy for Research, 
Development, and Acquisition; and Lieutenant General 
Christopher C. Bogdan, F-35 Program Executive Officer.
    Because we were held up for votes, I am going to enter my 
statement for the record, if there is no objection.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 31.]
    Mr. Turner. And we will also enter Ms. Sanchez's statement 
in for the record, and we will proceed right to the statements 
of our witnesses.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 33.]
    Mr. Turner. I believe we will start with Dr. Gilmore.

STATEMENT OF DR. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL TEST 
       AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Gilmore. Thank you, Mr. Chairman, members of the 
committee. In my opening statement I will focus on readiness 
for operational test and evaluation.
    My estimate is the program won't be ready to begin IOT&E 
[initial operational test and evaluation] until mid-calendar 
year 2018 at the earliest. That would be about a 1-year delay 
relative to what the program is carrying currently as its 
objective dates and about 6 months relative to its threshold 
dates.
    The reasons are the following. The most complex mission 
system testing remains, as does verification and fixes to 
significant problems, some of those fixes already having been 
identified and some not. Mission system stability, including 
the radar, still a problem. Inadequate fusion of sensor 
information from sensors on the same aircraft, as well as among 
different aircraft, continues to be a problem. There are 
shortfalls in electronic warfare, electronic attack, shortfalls 
in the performance of the Distributed Aperture System, and 
other issues that are classified with regard to mission 
systems.
    Stealth aircraft are not invisible. To achieve success 
against the modern stressing mobile threats we are relying on 
our $400 billion investment in F-35 to provide, mission systems 
must work, in some reasonable sense of that word. And we must 
provide every incentive to the contractors to make the mission 
systems work leading up to and after IOT&E, in my view.
    The program has now changed its approach from schedule-
driven software releases, which had overlaid old problems on 
top of new problems, to a capabilities-based approach. So now 
the program is addressing the significant deficiencies with a 
given version of software prior to proceeding with the next 
version, and I certainly commend that approach. And that should 
help work through and solve some of these problems that I have 
mentioned with mission systems.
    Other reasons IOT&E is likely to be delayed include the 
need for weapons testing and certification. The rate at which 
that has been done in the past must triple in order to get all 
the events done. There has been talk of cutting the number of 
events by two-thirds. If that occurs, that would simply shift 
the work to IOT&E and make essentially certain late discoveries 
of problems requiring fixes during IOT&E.
    The program is exploring ways to up the rate of testing, 
including using ranges at Eglin, and that would be a good 
decision, but decisions and action need to be taken soon.
    There is also the issue of certification of full weapons 
usage throughout the full flight envelope. The most recent test 
community estimates are that that would occur in October 2017 
for F-35A, February 2018 for F-35C, and May 2018 for F-35B. And 
we are looking at this. Some have proposed an incremental 
rolling start to occupational tests. That may not be practical, 
and it was certainly problematic when we tried it on F-22.
    There are still problems with the Autonomics Logistics 
Information System [ALIS], which is critical to the combat 
operations of the aircraft. There are many resource-intensive 
workarounds still required. Under the program's current 
schedule, ALIS 3.0, the full capability version required for 
IOT&E, would not be released until the first quarter of 2018.
    There is also the need for concurrency-driven extensive 
modifications required to early-lot aircraft bought for IOT&E 
when it was thought that IOT&E would begin in 2013. The current 
unmitigated--meaning no measures taken to correct the problem--
schedule shows mods extending into third quarter calendar year 
2019. The program is, however, working on a multipronged 
approach, including using later-production aircraft slated for 
operational use and taking hardware from recently delivered 
aircraft on the production line that could move the completion 
of those modifications into 2018, and a decision is needed now 
on that.
    There are also inadequacies in the U.S. Reprogramming Lab 
that is used to generate the Mission Data Files, which are 
essential to the success in combat and certainly success in 
operational testing of the aircraft.
    The program's optimistic schedule for delivery of a 
validated--but, in my view, very possibly inadequate--Mission 
Data File for operational testing is the third quarter of 2017, 
but that date assumes the U.S. Reprogramming Lab receives a 
fully capable version of Block 3F by April 2016, next month, 
which we already know under the program's current plans will 
not happen until this summer at the soonest.
    So for all these reasons, I suspect that we won't be ready 
for operational testing until mid-calendar year 2018.
    Thank you.
    [The prepared statement of Dr. Gilmore can be found in the 
Appendix on page 35.]
    Mr. Turner. Mr. Sullivan.

  STATEMENT OF MICHAEL J. SULLIVAN, DIRECTOR, ACQUISITION AND 
   SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Sullivan. Good morning, Mr. Chairman, members of the 
subcommittee. It is a pleasure to be here to discuss the 
progress on the F-35 program today.
    I have a written statement that I will submit for the 
record, and I just want to summarize five of the major points 
in that statement in my oral remarks.
    First, the Department [of Defense] is now planning to add 
new capability, known as Block 4, to the F-35 beyond its 
baseline capability and is planning to manage that effort as 
part of the existing program, rather than establishing a 
separate business case and baseline for this new work.
    This has significant implications as far as the Congress' 
role in oversight. This modernization effort is like a new 
program with estimated cost of about $3 billion over the next 6 
years. That price tag alone would qualify it as a major defense 
acquisition program in its own right, and it should be managed 
as such, so that it is subject to the same statutory and 
regulatory reporting as any other program its size.
    The F-22 provides precedent for this. It began its 
modernization effort as part of the existing baseline program 
and it eventually established a separate business case and 
developed into a major acquisition program with its own 
Milestone B in order to better track progress and cost changes.
    Second, although the program has been managing costs very 
well since 2010, the Nunn-McCurdy breach back then, and cost 
estimates have actually decreased since then, it still poses 
significant affordability challenges for the Department and the 
Congress. As production begins to increase and the program 
begins procuring more aircraft each year, the Department is 
expected to spend about $14 billion per year over the next 
decade and will average about $13 billion per year over the 
next 22 years until all planned purchases are complete in 2038.
    These annual funding challenges will compound as the 
program begins to stack its funding needs against other large 
acquisitions, such as the bomber program, the tanker program 
that is ongoing, the Ohio-class submarine replacement, the new 
carrier, and many other very large programs.
    It is important to note this is just the remaining 
acquisition cost for the F-35. As we all know, the cost to 
operate and maintain the F-35 across its entire life cycle is 
estimated now at about $1 trillion, which has added to that 
overall price tag.
    My third point is software development and developmental 
flight testing of the F-35 are now nearing completion, but the 
program faces challenges in getting all of its development 
activity completed on time. I think Dr. Gilmore covered that 
pretty well. It is through with 80 percent of its developmental 
flight tests. It has completed the first three blocks of 
software, and it is now working to close out flight testing of 
its final block of software, Block 3F.
    That is the critical block of software as it will provide 
the full warfighting capabilities required for the F-35. 
Program officials have stated that there would be as much as a 
3-month delay. We have done our own analysis and we think it 
could be more in line with 6 months. And I think Dr. Gilmore's 
analysis indicates even longer than that.
    Fourth, with regard to technical risks on the program, the 
program has most recently found fixes for its engine seal 
problem that we were talking about last year and the design of 
the helmet mounted display. And it has begun to retrofit 
aircraft with those fixes. They are not all in, but the 
solutions are there.
    Two new challenges have recently been identified. One 
concerns the ejection seat and the other concerns the wing 
structure of the carrier variant. The program is working now to 
find solutions to each of those problems. I think on the 
ejection seat they have a pretty good concept figured out to 
solve that one.
    It should also be noted that the Autonomic Logistics 
Information System, known as ALIS, continues to be challenging 
and has been cited as one of the most significant outstanding 
risks to the program today, and that has a lot to do with 
operations and maintenance, as you know.
    Finally, manufacturing and production data continue to show 
a positive trend toward more efficient production. The amount 
of labor hours it is taking to build each aircraft continues to 
go down, quality is increasing, and engineering changes have 
been reduced significantly.
    While there are still issues with late parts, this is 
consistently improving as well. Contractors are now delivering 
aircraft on time or ahead of schedule. We continue to track the 
measures for the aircraft's reliability and maintainability. 
And while they still fall short of expectations, they continue 
to improve, and there is still time to achieve the program's 
required goals at the right time.
    I will close with that. I look forward to your questions.
    [The prepared statement of Mr. Sullivan can be found in the 
Appendix on page 67.]
    Mr. Turner. General Bogdan.

   STATEMENT OF LT GEN CHRISTOPHER C. BOGDAN, USAF, PROGRAM 
          EXECUTIVE OFFICER, F-35 JOINT PROGRAM OFFICE

    General Bogdan. Thank you, Mr. Chairman.
    Chairman Turner, distinguished members of the committee, 
thank you for the opportunity to address the committee 
regarding the F-35 program. My purpose here today is to provide 
you a balanced assessment of where the program stands. That 
means I will tell you the good, the bad, and the ugly about the 
program, and tell you what my team is doing to reduce costs on 
the program and improve the F-35's performance and meet our 
scheduled commitment.
    Overall, the F-35 program is executing fairly well across 
the entire spectrum of acquisition, to include development and 
design, flight test, production, fielding, base stand-up, 
maintenance and support, and building a global sustainment 
enterprise. The program is at a pivot point and is now rapidly 
changing, growing, and accelerating. We will be finishing our 
15-year development program in late 2017 and beginning to 
transition to a leaner, more efficient follow-on modernization 
program.
    We will see production grow from delivering 45 aircraft in 
2015 to delivering over 100 aircraft in 2018 and up to 145 
aircraft by 2020. Additionally, in the next 4 years we will 
continue to stand up 17 new operating bases all over the world. 
We are also accelerating the creation of our heavy maintenance 
and repair capabilities, and supply chain, throughout the 
globe, including the Pacific, European, and North American 
regions.
    However, the program is not without risks and challenges, 
as these come with any program of this size and complexity. I 
am confident that the current risks and issues we face can be 
resolved and we will be able to overcome future problems and 
deliver the full capability that we have committed to.
    I have often said that the mark of a good program is not 
that it has no problems, but rather that it discovers problems, 
implements solutions, improves the weapon system, and at the 
same time keeps the program on track. I believe we have been 
doing that for a number of years now.
    Let me highlight a few of our recent accomplishments since 
our last hearing.
    Last year, we began U.S. Air Force and partner pilot 
training at Luke Air Force Base, where a blend of U.S. and 
partner F-35 instructor pilots are helping train U.S. and other 
partner pilots. The Air Force is now receiving F-35As at Hill 
Air Force Base in Utah and training is underway to ready its 
first combat-coded squadron to be operational this year. Also, 
the United States Marine Corps successfully flying and 
deploying to austere sites for training, dropping and shooting 
live weapons with its F-35Bs.
    In addition, industry is committed to and then successfully 
delivered 45 airplanes last year, including the first aircraft 
that was produced in Italy and assembled in their factory in 
Cameri. From a production perspective, we have delivered a 
total of 172 aircraft to our test, operational, and training 
sites.
    On the cost front, the price of purchasing an F-35 
continues to decline steadily, lot over lot. This is a trend I 
believe will continue for many years. I expect the cost of an 
F-35 with an engine and fee to decrease from about $108 million 
this year to about $85 million in 2019.
    As I said before, the program is changing, growing, and 
accelerating, but it is not without issues, risks, and 
challenges. So let me highlight a few of those areas.
    On the technical front we have a number of risks. At the 
top of my list are both software and our maintenance system, 
known as ALIS. On the software front we have seen stability 
issues recently with our Block 3 software and we are currently 
in the process of fixing and flight testing those fixes. We 
have also experienced issues with the development of our next 
version of ALIS, known as ALIS 2.0.2, and I am prepared to 
discuss these issues with you, as well as other risks and 
issues, such as our egress system, aircraft modifications, and 
our Reprogramming Labs.
    I am also prepared to discuss Air Force IOC [initial 
operating capability], initial operational testing, recent U.S. 
Air Force and Marine Corps deployments, and the status of our 
partners and FMS [foreign military sales] customers.
    In summary, the program is moving forward, sometimes slower 
than I would like, but moving forward and making progress 
nonetheless. We are nearing the completion of development and 
flight test in late 2017. We are ramping up production, 
standing up new bases, growing the global sustainment 
enterprise, and continuing to drive cost out of the program.
    I intend to continue leading this program with integrity, 
discipline, transparency, and accountability. It is my 
intention to complete this program within the resources and the 
time I have been given, and I intend on holding my team and 
myself accountable for the outcomes on this program.
    Thank you again for the opportunity to discuss the program. 
I look forward to your questions.
    [The joint prepared statement of General Bogdan and 
Secretary Stackley can be found in the Appendix on page 87.]
    Mr. Turner. Thank you.
    Mr. Stackley.

STATEMENT OF HON. SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE 
         NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION

    Secretary Stackley. Chairman Turner, distinguished members 
of the subcommittee, thank you for the opportunity to appear 
before you today to testify on the F-35 Joint Strike Fighter 
program. I will provide brief opening remarks and submit a 
formal statement for the record.
    One year ago, we discussed with the subcommittee the 
challenges facing the program at that time and our plans to 
address those challenges. In the course of this past year cost, 
schedule, and technical performance of the Joint Strike Fighter 
have steadily improved across each variant of the aircraft, in 
each phase of the program, development, production, and 
sustainment.
    Known technical issues are being driven to closure and the 
aircraft's capabilities, measured in terms of flight envelope, 
mission systems, and weapons delivery, are being steadily 
expanded in support of each service's requirements for initial 
operating capability, or IOC.
    As noted, production of F-35 aircraft and engines has 
improved from lot to lot in terms of unit cost, schedule 
performance, improved quality, reduced rework, and concurrency 
related costs. These positive trends are being sustained while 
also methodically increasing our rate of production.
    The pacing activity on the program today is flight testing, 
which itself is being paced by the incremental release of 
warfighting capability and mission system software blocks, 
commonly referred to as Block 2B, 3i, and 3F. Block 2B testing 
completed in 2015 and provided the capability required to 
support the Marine Corps' declaration of IOC in July 2015.
    The completion of Block 3i testing has been delayed pending 
correction of software stability issues. In the course of the 
next week, we commence flight testing what is planned to be the 
final build of Block 3i capability, designed to improve that 
stability, all in support of the Air Force IOC scheduled later 
this year.
    Completion of the final block, Block 3F, poses the greatest 
remaining challenge to completion of system development. Block 
3F includes the more complex functionality of the three 
software baselines, including what is referred to as sensor 
fusion.
    Further coding and testing of Block 3F has been impacted by 
resource demands, software engineers, and lab facilities 
associated with supporting completion of earlier software 
builds. These factors add up to the program's estimate of 4 
months schedule risk to completion of Block 3F developmental 
testing. This projection still supports the Navy IOC with Block 
3F in 2018.
    That said, we are wary that further technical issues are 
certain to emerge as we press on with testing, and it will be 
critical that the program rapidly correct these deficiencies 
while mitigating their impact on both test and production.
    The program's commitment is to mitigate these risks going 
forward and to do so within the bounds of the program's budget 
while delivering the full capability defined by the Lightning 
II requirements document.
    Meanwhile, the program's focus is increasingly shifting to 
operations in support of in-service aircraft. The program has 
accumulated 50,000 flight hours, and with 152 aircraft 
operating at 8 bases across the country, the warfighter's 
experience and feedback on the aircraft and support systems is 
beginning to shape the program's priorities.
    The Marines have two full squadrons in operation today and 
will stand up their third this June. They are building momentum 
as the service and the vanguard of the F-35 effort, gaining 
capability and confidence and employing it tactically every 
day. They have demonstrated operations from an austere forward 
operating base at Twentynine Palms in support of the Marine 
Corps combined arms exercise. They are training British pilots, 
as well as first tour Marine Corps pilots, in Beaufort, South 
Carolina.
    They will deploy the Nation's first operational F-35 
squadron less than a year from now to Marine Corps Air Station 
Iwakuni, Japan, in January 2017. Marine pilots love this plane 
and the capability it brings to the Marine Corps air-ground 
task force.
    Meanwhile, delivery of Air Force F-35A aircraft at Eglin 
Air Force Base are completed, training for Air Force 
international partner pilots at Luke Air Force Base continues 
to ramp up, and the Air Force first operational squadron is 
filling out at Hill Air Force Base with seven aircraft at Hill 
and remaining aircraft completing modifications to support IOC.
    Separately, the Navy has gained extensive experience 
demonstrating launch, recovery, handling, and support of the F-
35C during at-sea trial periods aboard the aircraft carriers 
Eisenhower and Nimitz and a third sea trial scheduled for later 
this year.
    Two key points regarding operations and sustainment require 
mention. First, with particular regard to aircraft reliability, 
maintainability, and availability, or RM&A, one year ago we 
reported that overall performance in this area was poor and 
trending poor. Concerted efforts by the government/industry 
team have reversed those trends. And while we have much work 
remaining, improvements to design, parts availability, 
maintenance training and support, and tooling are yielding 
improved performance in the key metrics. RM&A will remain a 
principal focus area for the program in the years ahead.
    Second, the program is working closely with the services, 
our international partners, and industry to formulate an 
operating and support strategy for the program including the 
business plan that will accompany this strategy and an 
overarching O&S [operations and support] war on cost.
    A critical element of the O&S plan is the Autonomic 
Logistic Information System, or ALIS. ALIS continues to mature, 
improving with each version fielded. In the near term, we will 
be testing a new version, ALIS 2.0.2, which we expect to 
support the Air Force IOC. Additionally, to improve turnaround 
time for fixing issues highlighted by fleet maintainers, we 
have commenced delivery of service packs aimed to be more 
timely and responsive to a warfighter's immediate needs.
    In the long term, however, ALIS has yet to meet its full 
promise, and we will need to go the full distance in that 
regard if we are going to succeed in meeting our goals for 
reducing the ownership cost and increasing the operational 
availability for this complex aircraft, and we are committed to 
that end.
    In summary, the F-35 program is making solid progress 
across the full spectrum of development, production, testing, 
and fielding of capability. As known issues are retired, new 
issues will emerge, and these too will be wrestled to closure. 
The program's forecast for delivery of initial operating 
capability for each of the services, including risk, is largely 
unchanged from one year ago. Yet, the size and complexity of 
this program and the capability it represents is such that a 
great amount of work remains ahead, leading to each ensuing IOC 
and subsequent operations and sustainment and modernization of 
the aircraft.
    We are careful to neither minimize our assessment of the 
inherent risks nor to avoid them, but rather to assess them 
realistically and manage them aggressively. The warfighter and 
our international partners deserve nothing less.
    Mr. Chairman, again, thank you for the opportunity to 
testify today on the Joint Strike Fighter program. I look 
forward to answering your questions.
    [The joint prepared statement of Secretary Stackley and 
General Bogdan can be found in the Appendix on page 87.]
    Mr. Turner. Thank you, gentlemen.
    I want to start with a question that goes to the public's 
perception of this plane, the F-35. We all are very much aware 
of the difficulties that the F-35 has had both in development 
and in production and certainly in getting to operational 
capability. But I was surprised the other morning to wake up in 
my own hometown--Mr. Sullivan, you hail from Wright-Patterson 
Air Force Base, so you may have similarly seen a huge headline 
across the Dayton Daily News that says: ``Ohio Voters Favor 
Canceling Jet Fighter.'' I thought it was kind of interesting 
for a couple of reasons. One, no one called me to ask me to 
quote for it, and it is my local newspaper. But it's a 
Washington bureau that quotes a University of Maryland study, 
that then quotes a response from a Washington think tank.
    So I want to give you guys who actually know about the F-35 
an opportunity to discuss what this article raises, because 
there is a fundamental flaw in the study that gives the 
screaming headline of Ohio voters favor canceling the jet 
fighter.
    Apparently, they did an online poll, and we all know the 
liability of online polls of course, but there are 520 
registered voters in Ohio. And it concludes that Ohio voters 
favor upgrading current fighters instead of going forward with 
the F-35 and resulting in a $97 billion savings to taxpayers by 
2037.
    Now, obviously, we have not done a very good job of 
communicating the importance of the F-35 and its capability and 
why it is necessary. But the article does, I do want to give 
Jack Torry, the author of the story, credit. He does end with 
Loren Thompson, chief executive officer of the Lexington 
Institute in suburban Washington, with this quote: ``It is 
impossible to upgrade any of our Cold War fighters that would 
be as survivable as a stealth plane. That is the biggest single 
appeal of the F-35, is that most enemy radars simply can't see 
it. You can't shoot down what you can't see.''
    So the article concludes with an interesting point. But the 
fact that a poll is taken asking people would they rather 
upgrade something that is not upgradable rather than proceed 
with the F-35 probably is something that bears our discussion.
    General Bogdan, help us here so we can give people some 
information so they can feel the importance of the investment 
in the F-35.
    General Bogdan. Yes, sir. I have to be a little bit careful 
because----
    Mr. Turner. I want to recognize--let me say it for you--I 
want to recognize that a portion obviously of the F-35 
capabilities go into the classified realm and its adversaries' 
capabilities are in the classified realm. So some of the 
capabilities of the F-35, the need for the F-35 cannot be 
discussed. But certainly the concept that this is fifth 
generation and that we cannot merely just plug and play with 
our old generation is probably worthy of a discussion.
    General Bogdan. Yes, sir.
    I agree with you. I have never been associated with a 
program in my 25-plus years of acquisition where the public 
perception and the reality are so different. Part of that is 
our problem for not telling the story, but part of it is 
because the program is so big that every minor issue becomes a 
big issue. We have had a past that has not been conducive to 
people believing in what we say. We have added years and 
billions of dollars to the program in the past. Even though 
that hasn't happened since 2010, people remember that.
    And it sometimes is difficult to explain to the public how 
air warfare is changing and how it is not a turn-and-burn 
airplane that looks really cool at an air show that is going to 
win the fight for the United States when we go into combat in 
the next 20 or 30 years.
    So we do have a perception problem and we do have an 
information gap there. What do we do about that?
    First and foremost, I do want to thank the Congress for 
helping us. You do. And you do that in a number of ways. One, 
you help us by holding us accountable. And when people know 
that you are holding us accountable and we base what we do and 
say on our results, then people will start having a better 
understanding and a better trust in what this weapon system can 
do.
    On the Department side--and this is where I have to be 
careful, because I shouldn't be necessarily a salesman for the 
F-35, you need me to be a little more balanced than that--but 
for our warfighters there is clearly a role for them to play in 
advocating for this airplane. And in the past we haven't done a 
great job of that, simply because the airplane was immature, we 
were only operating at a number of locations, and we are still 
developing it. So let me just give you a few things that are 
going to happen this year that might change that a little bit.
    The Air Force has stood up an F-35 heritage flight, which 
means that the F-35 is now going to be publicly displayed in 
many, many places over the next year. In fact, they have 14 
public events between now and the end of 2016, some of the 
places including Luke Air Force Base, Langley Air Force Base, 
Fort Lauderdale, New York City, Chicago, Baltimore, Reno, Las 
Vegas. So the Air Force is getting out there with the airplane 
to these air shows and is going to start talking to folks about 
the airplane.
    The U.S. Marine Corps and the Navy, similarly, when they go 
to sea this year for their sea trials, will bring media with 
them so that they can tell their story. The Dutch, who are a 
partner on this program, are planning on bringing their two 
airplanes to the Netherlands in June for 2 weeks for the very 
thing that you just talked about, Congressman Turner, to 
introduce the airplane to their public, to talk about it, and 
to talk about why the airplane is needed for them. The U.S. 
Marines, the U.S. Air Force, and the U.K. will bring five 
airplanes to Farnborough and RIAT [Royal International Air 
Tattoo] this year in July at the U.K. Air Show.
    So I think getting out there and telling the story is part 
of what we need to continue to do. I also think we need to 
continue to base things on fact. And when people out there 
don't have the facts, then it is my job and my team's job to 
correct the record for that.
    Mr. Turner. And, General Bogdan, in getting to the issue of 
facts, this poll asked people would they rather upgrade the 
current fighters instead of proceeding with the F-35. Loren 
Thompson said: It is impossible to do what they have asked, you 
cannot upgrade our Cold War fighters. Would you agree with the 
statement of Thompson and would you want to elaborate?
    General Bogdan. Yes, sir. You can only do so much with our 
fourth-generation fighters today. You can only add so many 
upgrades and structurally improve them to last a certain period 
of time.
    But what I will tell you from the knowledge I have on this 
program and the capabilities of the F-35, our legacy airplanes, 
now and in the future, will not survive the threat environments 
we know we are going to have to face. So no matter how much you 
upgrade them and how much you put into them, eventually they 
will not survive.
    This airplane differently. It will survive----
    Mr. Turner. In combat.
    General Bogdan. In combat will survive for decades to come.
    Mr. Turner. I just want to point one thing before I ask Mr. 
Sullivan his comments on this. This poll asks people about 
sticking with our current fighters through 2037. I wonder what 
the poll would have been if they asked people would they be 
willing to drive their current car through 2037.
    Mr. Sullivan, would you agree also that the poll is skewed 
in it gives people a false option, you can't upgrade our 
current fighters, as Loren Thompson says, in any way that would 
be as survivable as the F-35?
    Mr. Sullivan. I think it is clear that this aircraft, 
fifth-gen aircraft, does things that the generations in the 
past can't do, won't ever be able to do. The stealthiness alone 
is a major part of this, but it is also probably more 
versatile. It is three different variants. It is replacing or 
complementing a number of different aircraft that are growing 
older every day as we sit here and are having service life 
extensions and things like that.
    So, yeah, I would agree that the F-35 is going to be a more 
versatile and a more powerful threat than what we have 
existing. And I think probably a lot of this has just come 
from--the past is the past, I understand that, but people still 
see a lot of money being put forth for the F-35.
    The other thing, I think, that you have to consider is that 
some of these aircraft, their production lines are shut down or 
they are not as hot as they used to be. And you can't, I think, 
as General Bogdan said, you can't plug and play these new 
technologies into those old aircraft anyway. So, yeah.
    Mr. Turner. Mr. Sullivan, I appreciate your comments on 
that because you being the Director of Acquisition and Sourcing 
for this program with the U.S. Government Accountability 
Office, you are responsible for giving us some of the most 
critical oversight information that we have on the program. I 
know you know its difficulties and the areas in which we 
struggle to try to make certain that the program is effective. 
So I appreciate your overarching statement.
    Mr. Sullivan. Our beef has always just been with the 
acquisition strategy of this and many other programs. It takes 
way longer and costs more than they thought. But we have never 
really challenged the need for this or what its capabilities 
are eventually going to bring us.
    Mr. Turner. Excellent.
    Mr. Stackley, Dr. Gilmore, do you wish to comment on this? 
Excellent.
    Dr. Gilmore. The fourth-generation aircraft that we have 
and the systems that they have, and even with upgrades, 
wouldn't be able to handle the threats that we have already 
seen being deployed by our potential enemies for over half a 
decade. Those are very challenging air defense threats that are 
mobile, so you can't count on knowing where they are. The F-35, 
with mission systems that work as I alluded to in my opening 
statement, will provide capability that we don't have in any 
other platform to dynamically sense that very stressing mobile 
threat environment you can't know ahead of time with certainty 
and deal with it.
    So that is why it is so important that we get the F-35, 
including its mission systems, to work. It will provide us 
capability that we otherwise won't have and can't get in 
upgraded systems.
    Mr. Turner. Mr. Stackley.
    Secretary Stackley. Sir, let me just add, our operational 
planning for major combat operations, first and foremost, 
relies upon air superiority, air dominance. The F-35 is not 
being designed and built for the fight today, it is being 
designed and built for the fight in the future against the 
high-end threat. So we are not willing to take risk in terms of 
maintaining air superiority that we will need in the 2020s, 
2030s, and beyond. And the capabilities that are being brought 
to this aircraft are what we envision today as that necessary 
to overcome the threat in the future.
    I agree with Loren Thompson here that somebody is offering 
a false choice when they say we can just upgrade the existing 
fighters to get that level of capability. You cannot. The Navy/
Marine Corps does have a mixed fleet in the future of fourth- 
and fifth-generation aircraft. We will continue to have a mixed 
fleet at least through the mid-2030s. But we cannot enter high-
end fight without the fifth-generation capability that the JSF 
brings. That is why we are so committed to this capability.
    Mr. Turner. Thank you. Very important discussion.
    Now turning, however, to some of the issues and 
difficulties that we have in making certain that this plane 
reaches its full potential.
    General Bogdan, Dr. Gilmore, and Mr. Sullivan's testimony 
indicate that significant challenges still do remain in 
completing the final software block, Block 3F. As you know, 
this is the version of software that gives the F-35 a full 
wartime capability, so it is very important. You also indicated 
in your testimony that Block 3F software is likely to be 
delivered 4 months late.
    What is the operational significance if this software is 
delivered 4 months late? Could it impact the current scheduled 
initial operational test and evaluation, IOT&E test? And what 
risk-mitigation actions are you taking to be able to fix this?
    General Bogdan. Thank you, sir.
    The issue today with the Block 3 software--and we see the 
problem in both our 3i, or 3 initial, software and in our 3F 
software--has to do with stability.
    And just very quickly, what the pilots are seeing is, when 
they take off and they need to use the sensors, particularly 
the radar, there are some instances where the communication 
between the radar and the main computers in the airplane are 
mistimed.
    And that mistiming builds up little delays. And eventually 
those delays get to be big enough where the radar shuts off. 
Okay? And the radar will recover, but it will recover and take 
a few minutes to regain the picture that it had. Some of the 
other sensors experience the same thing. That is not good.
    We are experiencing that kind of problem about once every 4 
hours of flight time. We need the system to be much more stable 
in that, something on the order of once every 8 to 10 hours.
    So what we did when we found this problem out in the last 
few months is we went back and did a root cause analysis. As I 
just talked about, we know it is a timing issue. Lockheed 
Martin has a number of fixes in the software that we are about 
to flight test, starting next week in our next version of 3i 
software. In the next month or so we will know if those fixes 
work.
    If those fixes work, the stability fixes and some of the 
other software fixes, then the impact of this problem to Air 
Force IOC will be minimal. The impact to the remaining testing 
of 3F, as I said, will probably just delay the end of flight 
test about 4 months. That does not impact Navy IOC because we 
had some margin there, but it clearly would impact how ready 
the airplanes are for IOT&E.
    So we are looking forward to the flight tests that we are 
going to do in the next month or so to see if we have this 
solved. If we do have it solved, again, no impact to Air Force 
IOC, no impact to Navy IOC, but probably an impact overall to 
the end of testing, and that would eventually impact the start 
of IOT&E.
    Mr. Turner. Mr. Bogdan, I must have misunderstood. You were 
describing a problem with the software that you said would 
occur one time every 4 hours, but it would be okay if it 
occurred every 8 to 10 hours. Isn't that still a problem with 
the software?
    General Bogdan. With 8 million lines of code in the 
airplane, it is not unusual for both legacy airplanes and 
modern fifth-generation airplanes every now and then to have to 
reset one of the sensors in flight or have an automatic reset. 
That is not an uncommon situation.
    What we find is, if that happens more frequently and it 
happens at critical times, then that impacts the pilot's 
ability to get the mission done. But over time and historically 
we have seen that somewhere between 8 and 10 hours is probably 
about what we can expect and that, according to the 
warfighters, is good enough.
    Mr. Turner. Thank you for clarifying that.
    Mr. Sullivan, Dr. Gilmore, would you like to clarify on the 
3F software.
    Dr. Gilmore. Well, the rate at which these instability 
incidents were occurring with Block 2B was one every 30-plus 
hours, and now it is one every 4 hours. And the initial 
versions of Block 3i don't provide any more combat capability 
than Block 2B, it was supposed to be rehosting of Block 2B with 
the new processor.
    So with regard to whether 8 to 10 hours is sufficient, what 
you want is a low probability that during a combat mission, 
which comprise several hours, you want a low probability that 
one of these upsets that takes time to reset--and several 
minutes in the middle of a fight is not acceptable--you want 
the time between these instability incidents to be long enough 
that you have a very low probability it would occur in a multi-
hour combat mission.
    Whether 8 hours would be sufficient is something that we 
will certainly be looking at in IOT&E. It was much better than 
once every 8 hours with the Block 2B software. And again, 3i 
initially provided no more capability than Block 2B.
    Now, as we add capability and more complexity in Block 3F, 
you might see the numbers come down again. Ultimately, 
operational testing will tell us what is sufficient.
    Mr. Turner. Mr. Sullivan.
    Mr. Sullivan. Yeah, I think, depending on the mission 
scenarios and things like that, it is certainly a critical 
thing. I don't know if I would want to be a pilot and watch the 
screen go blank. But it is a spec, I assume, it is a spec that 
the contractor has, they are in development. We have talked to 
the contractor and the program office about this and it is a 
very serious problem. But 2B had issues and they worked through 
those and I would hope they can do the same with 3i. And I 
think probably they will be the same thing with 3F.
    So eventually I would hope that they will work that out and 
get it to whatever the spec is, which I would hope would 
support the warfighter. And if they do that--that is why the 
timing is so critical, because you would want that done by IOCs 
obviously, you would want to be able to go to IOT&E with 
problems like that under your belt as opposed to adding that to 
the burden of the operational testers.
    Mr. Turner. I am going to ask Mr. Stackley to follow up, 
but I have a few other questions that I am going to have to get 
through, but considering this is our last day for votes, I want 
to be sensitive to members who might need to leave. Since I am 
the only one on this side, I am going to ask unanimous consent 
if I let Mr. Stackley respond. And then the order is Mr. 
Johnson, Gallego, and Ms. Graham.
    What I will do is I will let each of you ask your 
questions, and then I will go back to my next question, and 
then we will finish up, and that way you can exit, if that is 
okay.
    Mr. Stackley.
    Secretary Stackley. Yes, sir, very briefly. The 2B software 
is performing very stably and I think everybody is satisfactory 
with its performance. The rehosting of that software into the 
new what is referred to as tech refresh on the JSF, the 
complexity of that rehosting should not be understated. We went 
through that on this tech refresh. We don't anticipate as large 
a leap in future tech refresh. But that complexity should not 
be understated.
    That did create a reset in terms of stability and now with 
each such successful build of software going back at building 
back up the degree of stability that we require. General 
Bogdan's reference to an 8 to 10 hours at this stage of the 
program, that probably is satisfactory. In the longer haul, Dr. 
Gilmore is correct, we want to get this up to a low probability 
of occurrence such that the pilot does not have to worry about 
resetting his mission systems mid-flight.
    Mr. Turner. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    To follow up on your questions about the need for our 
country to invest in a fifth generation of aircraft to take 
over from the legacy aircraft that have been flying for decades 
now, the F/A-18, the A-10, and the AV-8B, would all be replaced 
by our investment in the F-35 fifth generation.
    And it is important to note that other nations are 
investing in fifth-generation aircraft--the Russians, the 
Chinese--and that is what we mean by a changing threat 
environment, which America must step up to the plate. And if it 
intends to remain superior in the air, we must step up to the 
plate and invest and prepare for the long term. And that is 
what the F-35 enables us to do.
    With respect to those who may have participated in the poll 
that Chairman Turner referred to and were of the opinion that 
we should extend the legacy fleet and rely on it for our future 
protection, isn't it--and I assume they want to do that because 
it saves money. So penny-wise, pound-foolish, that would apply 
in this kind of a situation here.
    Isn't it a fact that if America were to do what some 
prefer, which is to extend the life of the legacy fleet, isn't 
it a fact that operations and supply costs to extend the legacy 
fleet would cost approximately four times what operations and 
support costs would be for the F-35 over the next 50 years? 
Isn't it a fact?
    Secretary Stackley. Well, let me start with responding to 
that. I don't know about the four times number, but what we do 
know is that----
    Mr. Johnson. Approximately.
    Secretary Stackley [continuing]. As our aircraft age, for 
example the early versions of the F-18 that the F-35 Bs and Cs 
are going to be replacing, the A through D version, as they 
age, the cost of sustaining them, the cost of keeping them 
flying, the availability rates for those aircraft, they are, 
frankly, hurting us in terms of our strike fighter inventory 
for today.
    So we have got to get this next version, generation of 
aircraft, not just the capability, but also to retire the 
legacy aircraft that are costing us today. So as that timeline 
extrapolates out, all the legacy aircraft could be running into 
similar costs associated with sustaining a fleet that is not 
just old, but a lot of the sustainment is dealing with obsolete 
parts and capabilities that fall short of what we require for 
the warfighter.
    Mr. Johnson. Anyone else want to add to that?
    Mr. Sullivan. I would just say that I wouldn't focus as 
much on the cost for O&S. The Joint Strike Fighter is going to 
be very costly with sustainment too. It is more about the 
capability. They need that greater capability. The fifth-
generation aircraft is really just far superior.
    I think O&S costs, it would cost a lot to keep these legacy 
aircraft in the air--I know the Harriers are really old--and 
eventually they just won't be able to fly them, I would think, 
after a while.
    So there is just nothing out there. The F-16 is another 
aircraft that the F-35 is going to replace. So there is an 
awful lot of aircraft it replaces.
    Mr. Johnson. Thank you.
    Lieutenant General Bogdan and Secretary Stackley, the 
Marine Corps declared initial operational capability last year 
for the F-35B and the Air Force is planning to do the same this 
year. This, to me, demonstrates a program that is maturing and 
reaching a point where it would benefit from increased 
production. Do you agree? And if so, what are some of the 
benefits and increased production rates for the F-35 program?
    Secretary Stackley. Let me start. First, it clearly 
reflects a program that is maturing. It was mentioned earlier 
that back in 2010 we restructured the program and within months 
we are holding to that restructured program's schedule here in 
2016 and our costs at the same time are coming down in terms of 
production while we hold the line on development.
    The program is methodically increasing its production rates 
to today in terms of both the U.S. and our international 
partners and foreign military sales customers joining in that 
production. So the production rate is methodically increasing. 
And what we are seeing in terms of benefit is we are 
accelerating the learning curve on the production floor, it is 
driving down our costs. And as described earlier, we are seeing 
positive trends by every measure as it relates to both airframe 
and engine manufacturing.
    The longer term, when we complete IOT&E and getting to the 
full-rate production decision, I think we are on track for 
that, again, within months, within a budget cycle. And as we 
march in that direction, we are looking forward to such 
vehicles as block buying contract and ultimately multiyear 
contracting to, again, further leverage the benefits of a 
stable design, mature production lines, and then let's buy it 
as efficiently as possible.
    Mr. Johnson. Thank you.
    I will yield back, Mr. Chairman.
    Mr. Turner. Thank you, Mr. Johnson.
    Turning back to the initial operating capability concerns 
and the requirements for later this year, General Bogdan, in 
attention to software development I understand that General 
Welsh is closely watching the progress of the Autonomic 
Logistics Information System, known as ALIS, as well as 
challenges facing aircraft software stability which is 
affecting the radar. As you know, ALIS was a significant area 
of concern raised by maintainers during our visit to the Eglin 
Air Force Base last year.
    Please provide us with a short update on these two issues 
and what your concerns are concerning the IOC later this year.
    General Bogdan. Yes, sir. As I said before, within the next 
30 days we ought to know if the fixes we have put into the 
software on stability will take hold. And if that is the case, 
then we will incrementally upgrade the Air Force's airplanes at 
Hill Air Force Base with that version of software and the 
software stability issue will not impact their ability to 
declare IOC.
    That is not the case with ALIS. ALIS, the next increment of 
capability we are delivering, as you know, is 2.0.2, and we 
were supposed to have that fielded by August of this year. I am 
estimating that that delivery of that system is probably about 
60 days late now. I am not sure if we will be able to pull that 
schedule back any. If that is the case, then it will be up to 
the U.S. Air Force to decide what to do in August when it comes 
to ALIS 2.0.2 if it is going to be about 60 days late.
    Mr. Turner. Does anyone else wish to comment?
    Mr. Sullivan. I would only say that we have another team 
within GAO that is looking and specifically kind of looking at 
ALIS. And I believe they have a draft report over on the Hill 
right now. That might be helpful, to look for that. In fact, I 
can probably make sure that the committee gets a draft copy of 
that.
    [The report referred to, GAO-16-439, is retained in the 
subcommittee files; it can be found online at http://gao.gov/
products/GAO-16-439.]
    Mr. Turner. That would be great. We should, because we had 
significant concerns for the maintenance group.
    Mr. Sullivan. Yeah. So this team is focused really on O&S 
and ALIS and things like that.
    Mr. Turner. Thank you.
    General Bogdan. Can I make one other comment, sir, about 
ALIS, very quickly? If you went to Eglin Air Force Base today 
or if you went to Luke Air Force Base, what you would find over 
the past year is not all, but many of the maintenance 
workarounds and burdens that we placed on the maintainers over 
the last few years are systematically getting improved.
    We are not anywhere near where we need to be with ALIS, but 
I think what you would get from the maintainers if you talked 
to them today is the fact that they do indeed see an 
improvement each and every time we put out a new version of 
software, which means the trending is going in the right 
direction, we just have a long way to go.
    Mr. Turner. Thank you, General.
    One thing we know is that consumers weren't given iPhones 
until they were done. You have to, however, put planes in 
pilots' hands while you are still developing them. And so we 
all get to look over your shoulder as you are doing it, and we 
appreciate both the work of the GAO and others to ensure that 
we have the right to-do list, but your diligence to try to make 
certain we complete it.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    General Bogdan, the original concept of the F-35 platform 
was to retain about 70 percent similarity between the three 
variants in order to keep costs down on the budget. But as we 
know, this has not been achieved, which calls the original 
concept into question.
    Knowing this, would you support programs in the future that 
aim for commonality between platforms for the services or do 
you think these efforts would also have too many cost and 
schedule overruns?
    General Bogdan. Congressman, what I have said before about 
joint programs is that they are hard, they are neither good nor 
bad, and it really depends on how you manage them. But they are 
indeed hard, and they are hard because when you bring together 
a number of different customers that may have varying 
requirements, it is sometimes hard to meet all those 
requirements without going to the least common denominator.
    And so what I would tell you is a decision to move forward 
on any platform in the joint arena would depend on how much 
overlap the services see in the requirements that they have. 
There are opportunities outside of a joint program to benefit 
from commonality, using similar engines, using similar flight 
control systems. But to embody that in the same airplane that 
would try and meet the requirements of varied customers is a 
really hard thing to do.
    Mr. Gallego. I hope we will remember that in the future.
    Moving on to pilots, though. An October subcommittee 
hearing discussed the problems with the ejection process for 
pilots. Two solutions you talked about were developing lighter 
helmets and managing parachute timing after ejection. However, 
today we find out the GAO report notes that the helmet weight 
was not the root cause of neck injuries during ejection.
    What is the status of the efforts to protect our pilots, 
one? And with certainty, can you say that we've identified all 
the problems related to this issue?
    General Bogdan. Yes, Congressman. One point of 
clarification. There are two technical issues as to why a pilot 
less than 136 pounds has an added risk of injury during 
ejection. One of them is indeed because the helmet is too 
heavy, but the other is a technical issue having to do with the 
way the seat fires up and the center of gravity of a light 
pilot. But both of those problems contribute.
    We have three fixes in place to remedy this. The first is 
an ejection seat switch. That will be set by the pilot based on 
his or her weight. We have tested that. We are in the design 
phase of it. And that fix will be cut into production on our 
lot 10, and we will start retrofitting airplanes with that fix 
in November of this year.
    We also have a head support panel, which is a pad that will 
be sewn into the risers of the parachute. That fix has been 
tested. It too will be incorporated into lot 10 and it will 
start being retrofitted in November.
    Relative to the helmet weight, we needed to get the helmet 
down to about 4.6 pounds. We are in process of doing that as we 
speak. Originally the estimate was that that helmet wouldn't be 
ready for fielding until November of 2017. I can report now 
that that helmet will be available in November of 2016.
    So when we have the switch, the helmet support pad, and the 
lighter helmet out there in November, I believe by the end of 
this year we can remove the requirement of a pilot not being 
able to fly the airplane less than 136 pounds.
    Mr. Gallego. And then just the second portion of my 
question was, can you say with certainty that we have 
identified all the problems related to this issue in terms of 
our pilot safety ejection.
    General Bogdan. Sir, we have 14 more sled tests and 
ejection tests to go between now and September. So I cannot 
tell you right now definitively that we won't find other 
things.
    What I will tell you is we will completely test it. If 
there are problems, we have a good track record of fixing them. 
Because we will not put pilots' lives in danger by putting them 
in an airplane and an ejection system that is not safe.
    Mr. Gallego. Thank you. I yield back my time.
    Mr. Turner. Thank you.
    General Bogdan, as you are aware, a lot of our discussions 
between you and the committee are based upon our visit to Eglin 
Air Force Base, and the questions that we pose are a result of 
that fact-finding trip. There were 14 of them. And you have 
continued to both answer those questions and update them. I 
have your March 17, 2016, letter in response continuing to 
update us on those issues. If there is no objection, I am going 
to enter this into the record of your discussion on these items 
and the issues that we have been looking for, for oversight.
    [The information referred to can be found in the Appendix 
on page 113.]
    General Bogdan. Thank you, sir.
    Mr. Turner. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    And thank you, gentlemen.
    I remain a strong supporter of a fifth-generation fighter, 
having been an airman myself. Knowing the threats that we have 
that are emanating, we need that capability. However, I remain 
concerned about the close air support of FAC(A) [forward air 
controller-airborne] and combat search and rescue missions that 
are currently being done by the A-10 Warthog and the F-35's 
capabilities to replace that without increasing risk to 
American lives.
    General Bogdan, can you confirm that the F-35 requirements 
document is still that the F-35 would replace the A-10 and the 
F-16?
    General Bogdan. Ma'am, what I will tell you is the 
requirements document that I have on the program does not 
specifically say that it will replace the A-10 and the F-16. My 
requirements document has to do with what the capabilities of 
the F-35 is. The decision to replace airplanes with the F-35 is 
a service decision.
    Ms. McSally. Okay. I think, though, on the program page, I 
mean, the intent of the Department, the intent of certainly the 
Air Force is that the F-35 will replace the A-10 and the F-16. 
Is that fair to say?
    General Bogdan. I would believe, from the public statements 
I have heard from the Chief and the Secretary and the combatant 
commanders, that is a true statement.
    Ms. McSally. Okay. And I think that is also on the JSF Web 
site, as well, for the program.
    On March 3rd, the Air Force Chief of Staff said in a 
hearing that the mission capability of the A-10 will not be 
replaced by the F-35. He also talked to me about this after our 
hearing last week. He went on to say the A-10's current 
workload would be handled by the F-16 and the F-15E. This was a 
total surprise to me to hear him say this, to be frank with 
you. So I am concerned.
    And I look at their 5-year plan, that they are going to 
start mothballing more A-10s, next year, 49; 49 the year after 
that; 64 the year after that; 98 the year after that, finishing 
in fiscal year 2022. When do you think, again, we are going to 
be at FOC [full operational capability] for the F-35?
    General Bogdan. Ma'am, the full capability of the F-35 
relative to close air support will be delivered in the late 
2017 timeframe. We will have additional capabilities in our 
block for modernization that would make that mission more 
viable for the F-35. And I am not sure if the Air Force has 
declared an FOC date yet.
    Ms. McSally. Okay. But from the testimony, I think, for Dr. 
Gilmore, I mean, we have seen the F-35A, and we have talked 
about this in previous hearings, capabilities are limited, 20, 
30 minutes time on station; two bombs; you know, excuse my 
language, but we call one pass haul ass; no time to loiter; 
having to go to tankers; being Winchester; 182 bullets; limited 
night capability; inability to get data; targeting information; 
inability to survive a direct hit in close combat. These are 
all limitations we know about, we have talked about in previous 
hearings.
    So, Dr. Gilmore, I appreciate that your office has decided 
to do a comparison test between the F-35 and the A-10 on close 
air support. And I am concerned also about the combat search 
and rescue and the forward air control mission. Can you give us 
an update on that comparison test and when that is going to 
happen and whether there are any concerns about funding or its 
continuation in another administration?
    Dr. Gilmore. First, with regard to requirements, I reviewed 
the requirements document before I came here. And there is a 
clear statement at the beginning of the requirements document, 
which has been in force for a number of years now, that the F-
35 would replace the A-10.
    Ms. McSally. That is what I thought. Thanks, Dr. Gilmore.
    Dr. Gilmore. I am happy to send you a copy of that.
    Ms. McSally. Please do.
    Dr. Gilmore. In any event, with regard to----
    General Bogdan. Can I correct the record? When I talk about 
requirements on the program, I talk about a specification that 
I put contractors on to deliver a capability. The document you 
are talking about is a service document known as an operational 
requirements document,----
    Ms. McSally. Okay.
    General Bogdan [continuing]. An ORD, which I do not 
control.
    Ms. McSally. Okay. Thank you.
    Dr. Gilmore. And that's the one the Chief of the Air Force, 
the Chief of Staff of the Air Force signed----
    Ms. McSally. Great.
    Dr. Gilmore [continuing]. Namely, the operational 
requirements document. So that is what I was talking about.
    With regard to the close air support tests, comparison 
tests, yes, we are planning that. We are planning all the open 
air tests as we speak, working with the joint operational test 
team and the services. We expect to have that effort completed 
in June or July of this year. And we are happy to share those 
results with the committee and with you.
    With regard to funding, the costs of the close air support 
tests, including combat search and rescue [CSAR] and Sandy 
<dagger>----
---------------------------------------------------------------------------
    <dagger> ``Sandy'' refers to a mission in which an aircraft (most 
often an A-10) is tasked to support and provide protective coverage for 
a combat search and rescue mission to recover an ejected pilot behind 
enemy lines.
---------------------------------------------------------------------------
    Ms. McSally. Right.
    Dr. Gilmore [continuing]. Compared to not doing them----
    Ms. McSally. Right.
    Dr. Gilmore [continuing]. You know, compared to not having 
the A-10s fly, you know, conducting the same missions that the 
F-35s would conduct in those two areas or those three areas, 
varies between $3.5 million and $5.2 million. The difference is 
the amount of refly that you have to do. When you are doing--
just like when you are doing a test, you can't count on every 
scenario that you are trying to run actually working.
    Ms. McSally. Right.
    Dr. Gilmore. So you have to plan in the test for refly, the 
same way General Bogdan is planning for refly in developmental 
testing. So that is the reason for the range of $3.5 million to 
$5.2 million. We are working to, with the joint operational 
test team, to fit all of these comparison tests within the 
budget for operational testing, which was established, I think, 
about 5 years ago in the TEMP [Test and Evaluation Master Plan] 
that is now rather out of date. But, nonetheless, we take that 
budget seriously. And we are working to fit all the comparison 
testing within that budget.
    If there is--if we do go over, which, again, we are trying 
very hard not to do because we do take that budget limit 
seriously, it wouldn't be by more than 10 or 15 percent. And I 
would remind the committee that the Block 2B operational 
utility evaluation, which was supposed to have been done in 
2015, was canceled at my recommendation 2 years ago because it 
was clear to me that the aircraft wouldn't be ready for that 
kind of rigorous operational test. And the service acquisition 
executives agreed. And that was a savings of about $100 
million.
    So we are working to keep within the existing budget and 
the CAS comparison testing, CSAR, and so forth is, again, a 
small amount of the overall cost, $3.5 million to $5.2 million.
    Ms. McSally. Thanks, Dr. Gilmore. I am over my time. But 
could you--when would we be able to have those results 
delivered to Congress of the tests, do you think?
    Dr. Gilmore. Well, if we begin the operational testing, 
according to my estimate, which would be mid-calendar year 
2018, the operational test will compose, will comprise, rather, 
about a year. It will take about a year. And then it would be a 
few months after that, no more than 6, hopefully fewer, to 
actually finish the report.
    Ms. McSally. So late 2019, early 2020 would be fair?
    Dr. Gilmore. Yes.
    Ms. McSally. Okay. Thank you. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Turner. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Chairman. And thank you all for being 
here again. We really appreciate it. The strategic need for the 
F-35, I think everyone knows that. We hear it. It is now crunch 
time, though, on the delivery piece of it.
    And, General Bogdan, you are right, there is a perception 
issue both in what they are going to get and what they expect 
to get. But there is also this perception that I have held and 
I have used this as an example.
    I have been to no less than 14 hearings dealing with 
changes to retirement plans, taking away of the housing 
allowance, transferability of the GI Bill benefit, commissary 
changes, and TRICARE. And where that relates to this is the 
perception out there is, is when the Pentagon needs to save 
money, they go to those programs. And I always use the example 
that we haven't had as many of these.
    So I hear statements like this from one of our partners 
from the Australian Defence Force, I think it was Keith Joiner 
said it. He's responsible for evaluating this, and he said some 
systems like the radar are fundamentally worse than earlier, 
which is not a good sign. The next software version Block 4 
won't be available. So here we are with bug fixes for the next 
7 years. And they are looking, am I correct in this, they are 
reevaluating their purchases on this.
    So I go back home. I talk to soldiers and sailors, say, 
``So I just lost a GI Bill benefit. What is happening with 
this?'' How do I talk to them about it? Is it a matter of until 
you deliver it, this is just going to go on? Because I do kind 
of feel like I am asked to come into the play and do my part 
and say this, and then it is going to be delivered. How do I go 
back? How would you answer on this?
    General Bogdan. It is a tough question, Congressman. And I 
clearly understand the point of view here. I guess the best I 
would offer, if I were asked that question, is that bringing a 
new weapon system online to defend our country is never easy. 
And it always is fraught with mistakes, bad choices, technical 
challenges. And the history of especially developing airplanes 
has been murky. We have had lots of problems over the years 
bringing new airplanes online.
    Mr. Walz. And that is a helpful piece. You have more 
experience in this. How similar is this to when the F-16 came 
on? How similar is what we are seeing here today?
    General Bogdan. The F-16 was a very simple airplane when it 
first came out and over the years got more complicated. And it 
had setbacks. I am not sure if you are aware, the very first 
flight of the F-16, sir, was an accident. They were not 
supposed to take off. Because of the flight control system not 
being properly rigged, the pilot, in order to save the 
airplane, had to take off. So airplanes experience this.
    Mr. Walz. No, I think that is true. And I want to be clear 
on this so that I am not, and I am not teeing this up, because 
I am one who believes we need these systems. Is it apples to 
oranges because of the exponential technical differences 
between that launch and this launch? And I know that is kind of 
a hard question because we were at our technological limit then 
and now maybe we are there, so it may be similar to that. But 
is it the case that there is more things that can go wrong so 
they probably will?
    Secretary Stackley. Sir, let me jump in and say that is 
absolutely the case. And it is not unique to the F-35 program. 
We are going after a high-end capability on this and other 
warfare systems that are significantly more complex than the 
systems that they are replacing. So there is no such thing as 
replacing legacy, whether it is aircraft, missile systems, 
ships, tactical vehicles, on a one-for-one basis anywhere near 
the same cost of those legacy systems because these are so much 
more capable.
    You know, the comments and perceptions from folks that are 
not well informed on the program, those are tough to defeat 
because now you are talking about an education process.
    The reality is that the F-35 program, albeit it has gone 
through restructuring, is on a path to deliver all the 
capability that was promised from day one. It is going to cost 
more than what was estimated back in the 2002 timeframe. Those 
costs were rebaselined in 2010. And we have kept those under 
control to the extent that now we are actually reducing costs 
with time as the program gets more and more mature.
    What you are not hearing, and I think General Bogdan 
touched on this earlier, is the warfighters that are flying 
this plane, what their perception is. My comment in the opening 
statement was the Marines love this aircraft, absolutely love 
this aircraft. This is what they plan to go to war with, if 
called upon. I think that you are going to hear that overtake 
the other rhetoric over time as more and more of our Air Force, 
Marine Corps, and Navy pilots, and our international partners 
climb into this cockpit, see what its capability is, train with 
it, and then deploy with it over time.
    Mr. Walz. Yes, Mr. Sullivan.
    Mr. Sullivan. Your question is an excellent question. And 
it is not just the F-35 program. It is about the acquisition 
process. We do acquisition reform all the time. And actually, 
it has been improving the last few years. But the bottom-line 
answer to this is there has got to be a little truth in 
advertising when these weapon systems start up because they are 
always started up with optimistic cost estimates and schedules.
    This program was originally planned to be completed, 
everything purchased, by 2026. Now that is 2038. And so that 
additional 12 years of funding----
    Mr. Walz. And that has as much to do with this side of the 
table as that side.
    Mr. Sullivan. Yeah. So, I mean, and that is what you are 
talking about, is that the Congress is faced with unplanned, 
you know, funding for 12 years that they weren't planning on 
when they started. Like I said, it is not the F-35, it is most 
of the major weapon systems. They just don't have a good 
business case at the outset.
    The F-16 was a really good aircraft when it was delivered, 
and it was simple. And it is not that simple anymore. It is a 
very complex aircraft because they planned it properly. They 
had incremental planning on that and they did block upgrades. 
That is really what, I think what this is all about. And so 
other priorities go by the wayside.
    Mr. Walz. I know. Well, thank you. I yield back.
    Thank you, Chairman.
    Mr. Turner. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. I do just want to 
follow up on our discussion on requirements, just to make sure. 
Luckily, I flew airplanes, I never had to procure them. So this 
process seems a little cumbersome to me.
    But just, Dr. Gilmore, an Air Force Chief of Staff has said 
that the A-10 will not be replaced by the F-35, on the record, 
within the last few weeks. And then said that to me in a 
conversation last week, surprising me. Is the Air Force going 
to be updating their ORD, or whatever you just called it----
    Dr. Gilmore. The operational requirements document? I 
haven't heard that they are.
    Ms. McSally [continuing]. To reflect that?
    Dr. Gilmore. I haven't heard that they are. And then the F-
35s are going to be replacing the F-16s.
    Ms. McSally. Right.
    Dr. Gilmore. So I am a bit puzzled. But all I know is what 
the existing operational requirements document said.
    Ms. McSally. Okay. So you know of no efforts to update 
that. And if it is currently----
    Dr. Gilmore. I am not aware of any.
    Ms. McSally [continuing]. Going to be replacing the A-10 
and the F-16, but he is saying the F-16 is going to replace the 
A-10, but then the F-35 is going to replace the F-16, then we 
are still in the same situation where we are. In specific 
circumstances for close air support, we potentially have 
additional risk or a gap or capabilities that are going to be 
degraded, which is why it is so important that we have this 
flyoff. Do you agree, Dr. Gilmore?
    Dr. Gilmore. Well, you know, I don't know whether the 
capabilities will be degraded.
    Ms. McSally. Right.
    Dr. Gilmore. That is what the comparison testing is 
supposed to find out.
    Ms. McSally. Absolutely.
    Dr. Gilmore. And that is why we are planning it to be, you 
know, absolutely fair. We are going to consider all the 
conditions under which close air support are done, all the 
different kinds of threats. And it certainly will be a 
challenge.
    In fact, the A-10 couldn't survive in the highest threat 
environments. But we are also looking at, you know, less 
stressing threats like the ones that the A-10 is being used in, 
the environments it is being used in today: urban, rural 
situations, buildings, vehicle personnel, different kinds of 
control for the close air support, different kinds of control 
interaction, all of the things that you know are done in close 
air support missions.
    We are going to set up the missions. And then the A-10 
pilots and the F-35 pilots will use those two aircraft to their 
best capabilities, using whatever TTPs [tactics, techniques, 
and procedures] they have. We are certainly not going to 
specify how the missions are done. We are going to specify what 
the mission is. And then we will do matched pairs comparisons 
of how well each set of pilots and aircraft can perform those 
missions the way they choose to.
    Ms. McSally. Great. Thank you. And it seems like there is 
just some different messages coming out of the Pentagon. I 
mean, the Secretary of Defense, when he announced his budget, 
said A-10s will be replaced squadron by squadron, with the F-35 
predetermining the outcome of this test. So we are trying to 
get some consistency out of the Pentagon by just asking these 
questions. I highlighted this to the Secretary yesterday. We 
are going to follow up with him and the Chairman. Because it 
just seems like even between the Air Force and the Secretary of 
Defense, they have got two different messages going on here.
    We believe that any movement forward should be conditional. 
Let's have the test. Let's get the results of the test. And 
then let's make a decision afterwards as to whether we are 
going to be increasing risks to our troops on the ground.
    So I appreciate the additional time, Mr. Chairman. Thank 
you, gentlemen. And I yield back.
    Mr. Turner. Thank you.
    Gentlemen, this is one of our most important and certainly 
largest programs. And I want to thank each of you for your 
diligence in trying to ensure that this program reaches all of 
the capabilities that are obviously going to be necessary. 
Because of that, before we conclude, knowing your diligence, I 
want to give each of you an opportunity if you have anything 
else that you want to put on the record or that you want to 
raise before the committee as we consider this, knowing that 
your input is incredibly important.
    If not, I know we have your opening statements. And we 
continue to have your advice and counsel. We appreciate the 
information you have provided to the committee. Thank you.
    [Whereupon, at 12:42 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 23, 2016

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    
      

    
  
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 23, 2016

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    
  
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 23, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. What do you think are the biggest hurdles for the 
program to overcome to be ready for IOT&E?
    Dr. Gilmore. The current plan to complete development and enter 
IOT&E by August 2017 is unrealistic. Several obstacles must be overcome 
before IOT&E can begin. These include:
    <bullet>  Completion of Block 3F development. The completion of 
Block 3F development will provide full combat capability to the F-35, 
including the ability to employ the full suite of weapons planned for 
the F-35. However, the program has completed less than 20 percent of 
the baseline Block 3F test points as of the end of April 2016. 
Completing the remaining nearly 4,200 baseline points will likely not 
occur until the end of January 2018, based on historical test point 
burn rates.
    <bullet>  Weapons integration. Much of the weapons testing remains, 
particularly to support the additional weapons being brought on with 
Block 3F (SDB, JSOW, AIM-9X, and the gun)
    <bullet>  Mission data. The programming lab that provides mission 
data needs to be upgraded to provide adequate, optimized, and tested 
mission data files for IOT&E. Despite being provided a $45 Million 
budget in FY13, the program has still not designed, contracted for, and 
ordered the required equipment--a process that will take at least two 
years, not counting installation and check-out. As a result, the signal 
generators needed to adequately test the mission data loads against 
advanced threat waveforms will probably not arrive until 2019 at the 
soonest, causing risk to F-35 avionics performance during IOT&E and in 
combat.
    <bullet>  Sustainment. The program set a target of 60 percent 
aircraft availability for the fleet as an objective at the end of CY14, 
but has yet to reach that goal. To efficiently complete the mission 
trials during IOT&E, most of which will require 4-ship formations of a 
single variant (out of 6-aircraft fleets of each US variant), the 
program will need to have an availability of approximately 80 percent, 
which is also the availability that will be required to succeed in 
actual combat. Improvements in reliability and maintainability, along 
with significant improvements to ALIS, are all needed.
    <bullet>  Modifications to operational test aircraft. The 
operational test aircraft must be production-representative and have 
the required instrumentation called for in the Test and Evaluation 
Master Plan (TEMP). Modifying the currently designated fleet of 
operational test aircraft to the Block 3F configuration would extend 
beyond August 2017. Although the requirement to modify these aircraft 
has been known for years by the program and Lockheed-Martin, adequate 
plans were not made to accommodate these modifications. For example, 
all of the operational test aircraft need the Tech Refresh 2 (TR2) 
processors, which have been included in the production aircraft since 
Lot 6 aircraft were delivered in late 2014, but TR2 processors for 
retrofitting the OT aircraft were not ordered in time to support 
completing modifications prior to August 2017.
    There is very little which can be done to mitigate these timelines 
to meet an August 2017 IOT&E start date. Although the program office is 
considering options with the Services provide operational test aircraft 
earlier, either by getting parts from the production line or from 
later-lot aircraft, or by substituting in newer aircraft, decisions 
must be made soon to have the TEMP-required number of production-
representative aircraft in time for IOT&E.
    Mr. Turner. Do the F-35 development and production schedules have 
more or less risk than last year and what is that level of risk?
    Dr. Gilmore. My assessment is that the progress in development over 
the past year has been less than planned, and hence--given the shorter 
timeline remaining to the completion of System Development and 
Demonstration (SDD)--the risk to the development schedule is greater 
than it was last year. The program's decision to pause the Block 3F 
mission systems development in order to address the Block 3i stability 
and other deficiencies was a good decision, but the needed fixes came 
at a cost to schedule. For several reasons, SDD will likely not be 
complete before March 2018, at the earliest. This assessment is based 
on the following assumptions:
    <bullet>  Block 3i mission systems testing is complete and will not 
need to restart
    <bullet>  Block 3i stability fixes have been successfully 
transferred to the Block 3F software
    <bullet>  Block 3F mission systems has restarted in earnest with 
all SDD aircraft
    <bullet>  The balance of approximately 4,200 Block 3F mission 
systems baseline test points (the number as of the beginning of May) 
will be completed by the test teams, without significant deletions by 
the program
    <bullet>  No additional discoveries which cause significant delays 
or unplanned software releases (beyond those currently planned) occur 
in Block 3F flight testing
    <bullet>  All planned weapon delivery accuracy (WDA) events--which 
include 25 events with air-to-air missiles or bombs and two sets 19 WDA 
events supporting of gun tests, one with the embedded gun in the F-35A 
and one with the podded gun for the F-35B and F-35C--are completed 
before the end of SDD. As of the end of April, none of these WDA events 
had been completed and will likely not begin before August 2016, after 
a version of software is released to flight test that will support the 
start the of the WDA events. The latest Program Office schedule shows 
that the missile and bomb events are planned to start in June and be 
complete by the end of November 2016, a schedule that I consider to be 
unrealistic. The program has prioritized 16 of the 25 bomb and missile 
events to be completed to support flight certification of weapons 
releases for Block 3F; however, all events, including the WDAs with the 
gun, must be completed to support end-to-end fire control 
characterization for all required weapons prior to the start of IOT&E. 
Although possible, the program's ability to complete these events 
before March 2018 will depend on efficiencies in completing WDA events 
and data analyses that have not been seen in the past (i.e., during the 
Block 2B and Block 3i WDA events) and the maturity of mission systems 
software to support the find-fix-track-target-engage-assess kill chain 
for each of these events.
    Concerning production risk, the program continues to have 
discoveries from testing that require modifications to be cut into 
production and retrofits to fielded aircraft. These discoveries are 
reflective of a design that is still not mature. Recent examples 
include cracking in the titanium bulkhead of the F-35C durability test 
article (CJ-1) where significant limitations to the life of the fielded 
F-35C aircraft can only be addressed with intrusive structural 
modifications prior to the expected full service life, and show again 
the high cost of concurrent production and development. Another example 
is the observed structural exceedances in both the F-35A and F-35C at 
the external carriage points for the AIM-9X missile--a weapon being 
integrated in Block 3F. Both aircraft have shown structural exceedances 
during in-flight maneuvering, and the F-35C during simulated carrier 
landings. The program is currently investigating a way forward to 
address these structural exceedances.
    Mr. Turner. Your report mentioned some concerns in your annual 
report about the U.S. Reprograming Lab not having the equipment 
necessary to produce the software necessary for F-35 combat operations. 
What are the implications of the USRL not having the required 
equipment?
    Dr. Gilmore. Significant, correctable deficiencies exist in the 
U.S. Reprogramming Laboratory (USRL) that will preclude development and 
adequate testing of effective mission data loads for Block 3F. Despite 
a $45 Million budget provided to the Program Office in FY13, the 
required equipment was not ordered in time and the USRL is still not 
configured properly to build and optimize Block 3F Mission Data Files 
(MDFs). The program still has not designed, contracted for, and ordered 
all of the required equipment--a process that will take at least two 
years for some of the complex equipment--after which significant time 
for installation and check-out will be required. The estimate of 
earliest completion, with the required signal generators and other 
upgrades to properly test Block 3F mission data loads, is late 2019, 
which is after the planned IOT&E of Block 3F. As I explain in my annual 
report, the corrections to the USRL are needed to provide the F-35 with 
the ability to succeed against the modern threats that are the key 
rationale for pursuing this $400-Billion program. If the situation with 
the USRL is not rectified, U.S. F-35 forces will be at substantial risk 
of failure if used in combat against these threats. Further, I note 
that the laboratory being built to provide MDFs to the partner nations 
will be more capable than the USRL is when we are preparing for IOT&E. 
The program must take immediate action to complete required 
modifications and upgrades to the lab before the USRL is required to 
provide the Block 3F mission data load for tactics development and 
preparations for IOT&E.
    Mr. Turner. Are you concerned that the program paused its software 
development schedule to try and fix the avionics stability problems and 
other critical deficiencies in Block 3i and 3F?
    Dr. Gilmore. No, I am not concerned. In fact, I applaud the 
program's effort to change from the schedule-driven, concurrent 
development process that the program was previously using to develop, 
test, and field versions of missions systems software to pursue a 
serial approach of addressing deficiencies before moving on to the next 
iteration of software. The decision by the program in February to 
return to the Block 3i configuration and address the poor mission 
systems performance has caused some near-term delays, but it is a 
necessary step to ensure the Air Force has adequate Block 3i software 
for IOC and that the additional full set of combat capabilities planned 
in Block 3F can be effectively tested with a stable baseline of 
software and eventually fielded to operational units. The success of 
Block 3F mission systems depends on the program resolving the problems 
with Block 3i. The stability and functionality problems in the initial 
versions of Block 3F, including those inherited from Block 3i and 
problems caused by new Block 3F capabilities, were so significant that 
the program could not continue flight test. I agree with the program's 
decision to shift to a serial process of testing and fixing software in 
the lab before releasing the next software version, and the recent 
improvements observed in Block 3i stability validate this serial 
approach. The program recently released an updated version of Block 
3FR5 software to flight test in April and then plans to release Block 
3FR6 later this summer. If the fixes to stability programmed into the 
latest Block 3i software continue to suppress the need for avionics 
resets in flight, mission systems testing and weapons releases can 
potentially resume in earnest and the test point completion rate will 
increase, which is essential given the significant amount of testing 
that remains.
    Mr. Turner. What more can be done or focused on to improve 
operational suitability?
    Dr. Gilmore. The operational suitability of all variants continues 
to be less than desired by the Services and relies heavily on 
contractor support and workarounds that would be difficult to employ in 
a combat environment. Almost all measures of performance have improved 
over the past year, but most continue to be below their interim goals 
to achieve acceptable suitability by the time the fleet accrues 200,000 
flight hours, the benchmark set by the program and defined in the 
Operational Requirements Document (ORD) for the aircraft to meet 
reliability and maintainability requirements. To improve operational 
suitability, the program should:
    1. Improve the reliability of components with higher-than-planned 
failure rates. While the program focuses on contract specification 
requirements, particularly Mean Flight Hours Between Failure for 
Design-Controllable components, I noted in my annual report that, among 
the measures of reliability that have ORD requirement thresholds, eight 
of nine measures are still below program target values for the current 
stage of development, although two are within 5 percent of their 
interim goal.
    2. Improve aircraft availability. Aircraft availability improved 
slightly in CY15, reaching a fleet-wide average of 51 percent by the 
end of the year, but the trend was flat in the last few months and was 
well short of the program's goal of 60 percent availability that it had 
established for the end of CY14. It is also important to understand 
that the program's metric goals are modest, particularly in aircraft 
availability, and do not represent the demands on the weapons system 
that will occur in combat. With respect to IOT&E readiness, if the 
program is only able to achieve and sustain its goal of 60 percent 
aircraft availability, the length of IOT&E will increase significantly 
because a combat-ready availability of 80 percent is planned and needed 
to efficiently accomplish the open-air mission trials with the number 
of aircraft planned for IOT&E.
    3. Improve maintainability by improving the quality and number of 
validated and verified Joint Technical Data, which are the reference 
documents used by uniformed personnel to conduct maintenance. Doing so 
would reduce the dependence on Action Requests currently experienced by 
fielded units to complete actions not clearly addressed in JTD, or to 
fix faults which are not yet addressed or covered by JTD.
    4. Deliver the planned capabilities of ALIS through ALIS 3.0 by the 
end of SDD. Functions such as propulsion data and life-limited parts 
management are expected to improve the overall utility of ALIS and 
streamline post-mission maintenance processes.
    5. Improve the accuracy of the Prognostic Health Management (PHM) 
system by reducing the number of false alarms reported after each 
flight. PHM is designed to automatically detect faults in the aircraft 
and alert maintenance personnel to take corrective actions. Unit 
maintenance personnel spend a sizable amount of maintenance time 
confirming there is no fault when one is reported, including time 
clearing known ``nuisance'' faults in the maintenance logs within ALIS.
    Mr. Turner. Your latest report indicates that it is premature to 
commit to a block buy for the F-35 program. However, the Department 
does have the potential to benefit in cost savings from such an 
approach. a. Please discuss the risks that you see in such a 
commitment. b. Given that a block buy was not requested in fiscal year 
2017, do you believe the Department would be in a better position to 
commit to a block buy in fiscal year 2018? Please discuss why or why 
not and at what point you feel a commitment would be warranted.
    Dr. Gilmore. a. As stated in my annual report, committing to a 
block buy prior to completing the Initial Operational Test and 
Evaluation (IOT&E) may cause the Department and the partners 
participating in the block buy to:
    1. Commit to aircraft that may require corrections to significant 
deficiencies discovered during IOT&E before they can be used in combat, 
particularly with the expected capabilities from Block 3F.
    2. Commit to large numbers of aircraft in a configuration that may 
need modifications to reach full combat capability and full service 
life.
    3. Lose the needed incentives to the contractor and the Program 
Office to correct an already substantial list of deficiencies in 
performance, a list that will only lengthen as Block 3F testing 
continues and IOT&E is conducted.
    4. Commit to an acquisition strategy that is not consistent with 
the ``fly before you buy'' approach to defense acquisition that many in 
the Administration have supported and is not consistent with the intent 
of Title 10 U.S. Code, which stipulates that IOT&E must be completed 
and a report on its results provided to Congress before committing to 
Full-Rate Production--a commitment that some could argue would be made 
by executing the ``block buy.
    b. My understanding is that the program and the Services have 
decided to delay the consideration of the block buy for at least 
another year, possibly starting in FY18. Nonetheless, even if the 
proposed block buy is delayed to FY18, all of the risks I identified 
previously remain valid, since IOT&E will not start until FY18, at the 
earliest, and will likely not be complete until FY19. The Department 
should not commit to a block buy until after IOT&E is complete and the 
decision to do so can be informed by the results of the planned, 
dedicated, operational testing.
    Mr. Turner. In your statement, you highlight similarities of the F-
22 modernization program and the current F-35 modernization program. 
Can you discuss some of these similarities and the risks involved with 
the Department's current approach to managing the F-35 modernization 
program?
    Mr. Sullivan. Our experience with the F-22 highlighted that 
managing modernization programs of this magnitude under an existing 
baseline hinders transparency. In March 2005, we found that the Air 
Force was managing its multi-billion dollar F-22 modernization efforts 
as part of the program's baseline and had not established a separate 
knowledge-based business case.\1\ As a result, the F-22 baseline and 
schedule were adjusted to reflect the new timeframes and additional 
costs, comingling the funding and some content for the baseline 
development and modernization efforts--some content that had not been 
achieved under the baseline program were deferred into the 
modernization program. When the content, scope, and phasing of 
modernization capabilities changed over time, it appeared that the F-22 
program was fraught with new schedule delays and further cost overruns. 
The comingling of modernization efforts with the existing baseline 
reduced transparency and Congress could not readily distinguish the new 
costs associated with modernization funding from cost growth in the 
original baseline. We recommended that the Air Force structure and 
manage F-22 modernization as a separate acquisition program with its 
own business case--matching requirements with resources--and 
acquisition program baseline. Eventually, the department separated the 
F-22 modernization program from the baseline program with a Milestone B 
review, in line with our recommendation, which increased transparency 
and better facilitated oversight.
---------------------------------------------------------------------------
    \1\ GAO, Tactical Aircraft: Air Force Still Needs Business Case to 
Support F/A-22 Quantities and Increased Capabilities, GAO-05-304 
(Washington, D.C.: March 15, 2005).
---------------------------------------------------------------------------
    The F-35 Block 4 modernization effort is much larger than the F-22 
modernization effort. DOD expects Block 4 modernization to develop and 
deliver 80 new capabilities and 17 weapons that were not part of the 
program's original acquisition baseline, compared to 8 new capabilities 
and 3 weapons for the F-22 modernization effort. In its fiscal year 
2017 budget request, DOD has identified the need for nearly $3 billion 
over the next 6 years for development of the new capabilities. If Block 
4 is managed as a distinct program with a separate baseline, it would 
be easier for Congress and DOD decision makers to track program-
specific cost and schedule progress. A hypothetical $1 billion cost 
increase in Block 4 illustrates the difference in cost reporting and 
oversight. While a $1 billion cost increase is significant, it would 
represent growth of less than 1 percent if tracked against the current 
F-35 program baseline--currently about $400 billion. That same cost 
increase, if tracked against the $3 billion funding estimate reflected 
in DOD's budget request for Block 4, would be more visible, 
representing a 33 percent cost increase. The department has the 
opportunity to apply lessons learned from the F-22 modernization effort 
to the F-35 Block 4 program.
    Mr. Turner. In this testimony as well as in the past, you have 
consistently raised long-term affordability as a key area of risk. 
Please explain why you continue to believe that affordability is a 
risk. In your opinion, has the program addressed this risk?
    Mr. Sullivan. Affordability continues to be a concern because of 
the sheer magnitude of the funding needs for this one program. For 
example, the F-35 program will require more than $14 billion a year on 
average for a decade. Affordability challenges will compound as the F-
35 program competes with other large acquisition programs including the 
long range strike bomber and KC-46A Tanker. At the same time, the 
number of operational F-35 aircraft that DOD will have to support will 
be increasing. The total cost to operate and support the F-35 fleet is 
still estimated to be more than $1 trillion. In recent years, 
affordability challenges, in part, have forced the Air Force to defer 
F-35 aircraft procurements to later years. Since 2014, the Air Force 
deferred 45 aircraft between 2017 and 2021 to later years. This will 
likely require the military service to make unplanned investments in 
extending the service life of their current fighter aircraft. The cost 
of extending the lives of current fighter aircraft and acquiring other 
major weapon systems, while continuing to produce and field new F-35 
aircraft, poses significant affordability risks in a period of austere 
defense budgets.
    Mr. Turner. Your statement mentioned that the program is making 
progress in testing, but that the most complex testing still remains. 
What do you see as the major risks in completing the remaining 
developmental test program?
    Mr. Sullivan. Although early software blocks (Block 2A through 3i) 
have completed testing, risks remain with the completion of Block 3F 
mission systems software testing. These risks center on the complexity 
of Block 3F, software issues, and the completion of a number of weapons 
accuracy events that have proven to be difficult in the past. Block 3F 
is the F-35's full warfighting capability and consists of challenging 
testing given the complexity of the missions and the stressing 
environments that are required. The program continues to experience 
problems with some mission system software functions shutting down and 
restarting during flight testing. Officials believed they had 
identified a fix at the end of 2015 and program officials plan to 
continue addressing the issue during 2016 in order to meet the Air 
Force initial operational capability in August 2016. There are also 
concerns about the tight timeframes to conduct the 55 weapons accuracy 
events that remain--30 of which are related to a gun. As of December 
2015, the program had completed 17 weapons events many of which were 
delayed by months due to software deficiencies and fleet groundings. 
Program officials are analyzing the remaining test schedule to identify 
potential efficiencies in their weapons test plan. Any delays in 
developmental testing could pose risk to the timely start of initial 
operational test and evaluation, currently planned for December 2017.
    Mr. Turner. The committee is concerned about meeting the U.S. Air 
Force's IOC requirements later this year. The Chief of Staff of the 
United States Air Force, General Mark Welsh, recently summarized two 
risks related to reaching Air Force F-35A IOC later this year (Aug-Dec 
time frame), the Autonomic Logistics Information System (ALIS), and 
aircraft software stability. a. Do you agree with General Welsh's 
assessment? b. Please tell us where you are with the ALIS development, 
its challenges, and what lies ahead to meet the Air Force initial 
operational capability? c. Characterize for us the software challenges, 
the approach you are taking to address them, as well as the timing to 
get this resolved for the warfighters? d. Finally, please share with us 
the progress you are making to get the Air Force combat ready with its 
F-35s later this year.
    General Bogdan. a) At the time United States Air Force Chief of 
Staff General Welsh made this remark, his assessment was spot on. These 
were the two biggest risks my team was working. Fortunately since that 
time, the software issue has been resolved.
    b) The ALIS software development to support AF IOC is complete and 
this version of the ALIS system is currently in the Integration and 
Test Phase. We are finding defects that are taking longer than planned 
to fix which is delaying our test events. In this version, we are 
integrating the F-135 Pratt & Whitney (P&W) engine management 
capabilities into ALIS for the first time. The ALIS system will be 
connected to the P&W enterprise supply and maintenance systems. This is 
a complex effort and we will take the time necessary to ensure we get 
it right. We are working through these issues and expect its resolution 
before the AF IOC threshold date of 31 December 2016.
    c) The F-35 had been experiencing some timing communications issues 
between the sensors and the aircraft main operating computer causing 
the system to reset. However, after much lab and flight testing to get 
to root causes, the F-35 Joint Program Office (JPO) has completed 
development of the Block 3i software the AF will use to declare IOC 
this year. The Block 3i software provides F-35s with initial 
warfighting capability on upgraded computer hardware. As of 1 May, the 
F-35 program has flown more than 100 flight hours with the 3i software 
and it has shown approximately twice the level of stability as the 
previously fielded Block 2B software and three times better stability 
than the original 3i software. The JPO began upgrading the F-35 fleet 
(Low Rate Initial Production (LRIP) Lots 6-8 aircraft) with 3i software 
the week of 9 May. The same stability and mission effectiveness 
enhancements have also been incorporated into a new version of Block 2B 
software, for the benefit of earlier fleet aircraft. The new version of 
2B software will be used to start upgrading LRIP Lots 2-5 aircraft by 
the end of May. The entire fleet of fielded F-35 aircraft will 
eventually be upgraded to these two new software versions by the end of 
calendar year 2016.
    d) In addition to resolving the software stability, the newest 
software also includes fixes to deficiencies that the USAF deemed 
``must-fix'' prior to IOC and also includes the Generation III helmet 
which has improved night sensor video processing and optics above the 
Generation II helmet. Other IOC needs are Mission Data Files (MDFs), 
training simulators, spares and support equipment, aircraft and 
training. Three developmental versions of MDFs to support USAF IOC have 
been delivered to Hill Air Force Base (AFB) in Utah to aid in its IOC 
preparations. Currently, we project two of the operational MDFs to 
deliver in early August 2016 and the remaining two to deliver in 
September 2016. We are working to pull all four MDFs further left in 
the schedule. All required training simulators have been delivered to 
Hill AFB. Sufficient support equipment and spares are forecasted to be 
in place to support IOC declaration. Twelve jets have already been 
delivered to Hill AFB and by July have 12 jets completed with all 
required modifications. For ALIS, we've already delivered (March 2016) 
the necessary hardware to Hill AFB that will support USAF IOC. 
Additionally, we've developed a training plan with USAF that provides 
multiple opportunities to review the new capabilities, train on those 
capabilities and ultimately receive ``hands-on'' experience with the 
new software prior to delivery at Hill AFB to support the AF IOC 
decision.
    Mr. Turner. The President's Budget request includes provisions to 
leverage economies of scale for a block buy contract. a. Please share 
with the committee what the benefits are of a block procurement 
strategy. b. Do these benefits also include the engine? c. Could you 
implement this sooner if we advance the President's proposal to FY17? 
And in your response, please let us know where the F-35 International 
Partners are with this and their view of the timing. d. If the 
International Partners elect to proceed with Block Buy economies of 
scale investments in FY17, and the United States waits until FY18, 
could this result in the U.S. Services paying a higher procurement 
price for the same F-35? e. If granted block buy authority, what would 
be your strategy to mitigate risks to the United States if the U.S. 
Services reduced or deferred their procurement quantities, similar to 
the five-aircraft reduction included in the current budget request for 
the U.S. Air Force?
    General Bogdan. a) The F-35 Joint Program Office (JPO) believes a 
Block Buy Contract (BBC) approach has the potential to save real money 
on this program. A BBC would achieve significant program cost savings 
by allowing the contractors to utilize Economic Order Quantity (EOQ) 
purchases, enabling suppliers to maximize production economies of scale 
through batch orders. To substantiate the potential savings of a BBC 
concept, the F-35 Joint Program Office contracted with RAND Project Air 
Force, a Federally Funded Research and Development Center (FFRDC), to 
conduct an independent assessment. RAND's assessment, delivered in 
March 2016, indicated that savings on the order of $2.5 to $3.0 billion 
can be achieved by providing a total of 4 percent EOQ funding to 
selected suppliers. b) Yes, overall BBC savings includes the propulsion 
system. EOQ will be provided to engine suppliers that offer the best 
return on EOQ funding. c) The JPO is ready to implement a BBC sooner if 
Congress includes the language and EOQ funding in FY17. Almost all F-35 
International Partners expressed they would follow the U.S. in such a 
BBC, while most may elect to begin in FY17 even if the U.S. starts in 
FY18. d) At this time, RAND is evaluating this hybrid option for the 
JPO; however if the F-35 International Partners follow this strategy 
and begin a year earlier than the U.S., the cost of an International 
Partner F-35 could be lower than one sold to the US Services. e) It is 
important to guard against year-to-year adjustments to the budget; 
therefore, the F-35 JPO will structure the contract using a variable-
quantity matrix as a tool to accommodate year-to-year adjustments 
should they occur, regardless if they are due to a downward budget 
adjustment or to address an increase to the quantities coming from the 
International Partners, Congressional adds, or through Foreign Military 
Sales.
    Mr. Turner. The President's Budget request includes $290 million in 
FY17 for F-35 Follow-on Modernization Block 4. What is your strategy to 
structure the F-35 Follow-on Modernization so it provides the most 
efficient use of tax payers' dollars while at the same time providing 
the maximum amount of transparency to the Congress to support our 
oversight responsibilities?
    General Bogdan. The F-35 Lightning II Joint Program is committed 
100% to ensuring the Follow-on Modernization (FoM) effort is as lean as 
possible so that the output--capability to our warfighters--is 
maximized. This will not be System Development and Demonstration (SDD) 
all over again but a smaller effort with a smaller footprint. We 
believe the F-35 FoM program should not be designated a separate Major 
Defense Acquisition Program (MDAP) but should be sub-program to the 
existing F-35 program. The JPO estimates the documentation and 
approvals necessary to establish and start a new program will cost 
between $10 million and $13 million and delay execution of FoM six to 
twelve months.
    The JPO will place FoM on a separate contract, establish a separate 
program baseline and require cost, schedule, and performance metrics--
to include Earned Value Management metrics and Nunn-McCurdy criteria--
on this separate FoM baseline. This contract structure will allow the 
JPO, Defense Contract Audit Agency and you the Congress and your staffs 
to have full insight into its costs, performance, and earned value--all 
the tools necessary for you to perform your oversight function. We are 
completely receptive to adding your specific reporting requirements 
that you believe are necessary. The JPO has no intent to ``bury'' the 
FoM program within the larger F-35 program to avoid performance 
monitoring and oversight--we just want to avoid unnecessary and costly 
effort. We can assure this openness and believe it is achievable 
without characterizing it as a new program, as some have recommended.
    Mr. Turner. When you appeared before this committee last fall we 
heard a lot about the pilot escape system. You testified that there are 
three things you are pursuing to address the light-weight pilot 
restriction. Briefly summarize the problem and the fixes that you're 
developing. More importantly, let us know the status of the fixes and 
when can we expect to see them so the pilot restriction can be lifted?
    General Bogdan. The F-35 pilot escape system is designed to be 
superior to legacy systems. The system provides reduced ejection 
stresses on the pilot and accommodates the widest range pilot sizes and 
weights (103 to 245 lbs).
    Lightweight Pilot Restriction: In August 2015, the U.S. Services 
and International Partners restricted F-35 lightweight pilots (weighing 
less than 136 lbs) from operating the F-35 after tests to qualify safe 
escape with an F-35 Generation (Gen) III helmet at low speed ejections 
indicated the potential for increased risk of neck injury for 
lightweight pilots due to forces experienced on the pilot's head.
    Solutions: There are three technical solutions that when in place 
will reduce the risk of neck injury to all pilots and will eliminate 
the restriction. All three are planned to be ready by the end of 2016, 
clearing the way for the U.S. Services and International Partners to 
lift the F-35 lightweight pilot restriction. These solutions include: 
1. A head support panel between the parachute risers. This eliminates 
the possibility of the head/helmet going between the parachute risers 
in low speed ejections. 2. A pilot-selectable switch to delay parachute 
deployment for lighter weight pilots. This 0.5 second delay will 
reduce parachute opening shock and neck loads during the parachute 
deployment phase of the ejection. 3. A lighter Gen III pilot helmet. 
This will reduce neck loads during all phases of ejection (catapult, 
windblast, drogue, and parachute deployment).
    Mr. Turner. As the F-35 program continues to field aircraft and the 
number of F-35 sites increase, there is a concern that the ALIS global 
network will become more vulnerable. What efforts are you pursuing to 
protect the ALIS global network from nefarious activities and other 
network disruptions such as those caused by natural disasters?
    General Bogdan. We are continuing to implement the necessary 
Information Assurance controls and testing required by the Department 
and the individual Services to allow Autonomic Logistics Information 
System (ALIS) to be connected to the US Air Force, US Marine Corps, and 
US Navy networks. Second, the Joint Operational Test Team (JOTT) is now 
performing Cyber Testing on the ALIS system and will continue this over 
the next year and a half. This testing will inform us of any 
deficiencies that may require mitigation. And finally, we have 
contracted for backup hardware for key elements of the ALIS system that 
we will be installing later this year in different geographic areas. 
This effort will eliminate single points of failure and mitigate risks 
from natural disasters.
    Mr. Turner. Last year, the Fiscal Year 2016 NDAA included a 
provision that asked for assurances that Block 3F software is on the 
right course and will be in F-35A aircraft delivered during fiscal year 
2018.
    a. Can you elaborate on this and share with us what capabilities 
are in the Block 3F software? b. What is the status of Block 3F 
development and what risks and mitigations are you managing to deliver 
this capability?
    General Bogdan. a) The Senate included this provision to prevent 
the significant ramp up in annual F-35A procurement rate unless the F-
35A aircraft hardware and software were mature enough to minimize costs 
for retrofits should aircraft continue to be delivered without the full 
capability. In this regard, the Low Rate Initial Production (LRIP) Lots 
9 and 10 aircraft delivered after 1 October 2017 (start of FY18) have 
an extremely low risk of retrofit costs because the full Block 3F 
mission software will be inherent with all LRIP 9 aircraft by May 2017. 
Block 3F includes the Tech Refresh 2 suite of hardware, coupled with 
software functionality that enables or enhances several F 35A mission 
areas. Block 3F incorporates advanced tactical avionics and opens the 
full flight envelope for the F-35. Block 3F weapons for the F 35A will 
include the GAU-22 internal 25-millimeter gun system, internally-
carried AIM-120C Advanced Medium-Range Air-to-Air Missiles, GBU 31 
Joint Direct Attack Munitions, GBU-39/B Small Diameter Bombs, GBU-12 
Paveway II laser guided bombs, and externally-carried AIM-9X Sidewinder 
missiles.
    b) The program plans to deliver the first F-35A (LRIP 9 procured 
with FY15 funds) with Block 3F hardware and software in August 2017 
with the full Block 3F capability minus the ability to use the AIM-9X 
weapon until the airworthiness and engineering communities clear the 
capability for use. We expect this AIM-9X capability to be released in 
September 2017. It will provide the full Block 3F combat capability of 
the F-35A, in advance of the first F-35A delivery in FY18. However, 
there is some schedule risk to meeting this full Block 3F capability as 
a result of delays in improving Block 3i and Block 3F software 
stability, which delayed the start of Block 3F flight testing. The 
program is taking concrete steps to mitigate this schedule risk 
including: committing all software development activities to Block 3F, 
condensing software release cycles, increasing software maturity prior 
to release from the lab, surging manpower and material resources, and 
deploying to high-capacity flight test ranges. We are confident we will 
be able to mitigate this schedule risk.
    Mr. Turner. As more and more F-35 aircraft are produced and enter 
operational use, there is a concern if we have everything in place to 
provide for their continued support. Are we providing adequate levels 
of spare parts across all the F-35 variants, or is there an imbalance 
between aircraft quantities and spare parts procurement along with 
other aspects of support. What are the impacts?
    General Bogdan. Sustaining the fleet especially our operational 
units is a top priority for the F-35 team and we will continue to 
ensure it remains as such. Spares are essential to keeping sortie rates 
up and we will do everything we can to keep our operational units flush 
with spares. There are three things that have impacted spares: 1) a 
prior year underfunding, 2) a downward congressional mark (e.g., $380M 
reduction to aircraft support per 2016 Consolidated Appropriations Act) 
and, 3) upward congressional aircraft procurement quantities (e.g., +11 
aircraft per 2016 Consolidated Appropriations Act). The combination of 
these requires us to rebalance our spares pools to support scheduled 
2017 deployments but adds risks to home base F-35 operations resulting 
in higher supply downtime, decreased aircraft readiness levels and poor 
contingency availability.
    Mr. Turner. GAO and others continue to raise concerns about the 
long term affordability of the F-35 acquisition program, noting that as 
procurement ramps up over the next 5 years, annual funding requests are 
projected to increase significantly. By 2022 it is projected to reach 
between $14 and $15 billion and stay at that level for a decade. At the 
same time other high profile DOD programs will be competing for funds, 
including the KC-46A Tanker, new bomber, and the Ohio class submarine 
replacement. a. What are the key factors driving the current F-35 
procurement plans-production rate levels and funding levels? b. Given 
Federal budget constraints and the competition for funding within DOD, 
do you believe that sustained annual funding of that magnitude is going 
to be achievable? Has the Department considered different procurement 
options, and if so, what has been considered? Are there any viable 
alternatives if the current plan is not affordable?
    Secretary Stackley. The key factors driving the Department's 
procurement plans-production rate levels and fiscal decisions include 
the F-35 Program's progress and fiscal constraints as the Navy 
considers competing priorities for annual resources. Since the program 
was re-baselined in 2012, following the Nunn-McCurdy unit cost critical 
breach in 2010, the development costs have remained stable. The costs 
required to complete the System Development and Demonstration (SDD) 
phase are tracking to what was budgeted for in 2011. Production costs 
continue to decrease with each production lot. Unit cost reductions are 
in line with projections and allowing for procurement quantity changes. 
The F-35 Program is tracking to meet the unit costs targets that were 
established when Milestone B was re-certified in 2012.
    The sustained funding requirements are certainly a priority for the 
Department. The F-35B and F-35C are much needed replacements for legacy 
platforms that have well outlived their expected service life. The AV-
8B and F/A-18A-D fleet of aircraft were originally designed as 6,000-
hour airframes. The Department has successfully enabled flight beyond 
the designed services lives, but continued modernization and 
sustainment is a fiscal challenge. Moreover, warfighting requirements 
demand a fifth generation aircraft to counter the expanding threat 
environment. Consequently, the Department considers the F-35 Program a 
critical node in Naval Aviation warfighting requirements and 
prioritizes funding accordingly.
    The Department is also considering a number of options in 
resourcing competing priorities. Given the fiscal and strategic 
implications for the Department of Defense as a whole, the Under 
Secretary of Defense for Acquisition, Technology & Logistics is 
examining the long-term health and viability of the TACAIR industrial 
base in depth. This study includes affordability as a primary objective 
in evaluating the TACAIR procurement plans.
    Mr. Turner. A year ago, the Navy deferred nearly 20 aircraft to the 
out-years. The latest Presidential Budget request shows that the Navy 
appears to be moving some of those same aircraft into the near-term and 
at the same time buying more F-18s. a. What is the rationale for these 
constant changes? b. How will this address the current fighter 
shortfall?
    Secretary Stackley The 2017 President's Budget submission 
represents a comprehensive approach to close growing gaps in Naval 
Aviation warfighting capacity and capability. The Department has 
committed to a balanced objective of sustainment, modernization and 
procurement across the strike fighter force. If resourced as requested, 
the plan will integrate fifth generation capabilities to meet the 
expanding adversary threat, continue modernization of the current fleet 
to maintain warfighting relevance and sustain strike fighter capacity 
to meet anticipated operational commitments into the future.
    The 2017 President's Budget request addresses all facets of Strike 
Fighter Inventory Management. In the near-term, sustainment investments 
are targeted at maximizing F/A-18A-D availability. The Navy has 
harmonized critical readiness accounts to target repair requirements 
which will ultimately continue to increase depot throughput to meet 
operational demand. In the mid-term, investments are targeted at 
decreasing F/A-18E/F service life extension risk to sustain inventory 
capacity into the 2030's. Targeted investments accelerate the F/A-18E/F 
Service Life Assessment Program and procure additional aircraft to 
ensure inventory capacity and pipeline aircraft availability during the 
process. In the far-term, the Department has focused on overmatching 
the expanding adversary threat with the integration of fifth generation 
capabilities. An additional ten F-35C aircraft over the Future Years 
Defense Program, relative to the 2016 President's Budget request, will 
assure capacity to meet warfighting requirements.
    Mr. Turner. Regarding the prospect of a block buy, do you believe 
the program is in a position to capitalize on economies of scale 
beginning in FY17 if the Congress provided the authority?
    Secretary Stackley The Department supports a future Block Buy 
Contract (BBC) to capitalize on economies of scale. A BBC would achieve 
significant savings by allowing the contractors to utilize Economic 
Order Quantities (EOQ) purchases, enabling suppliers to maximize 
production economies of scale through batch orders. An independent 
assessment by RAND Project Air Force, a Federally Funded Research and 
Development Center (FFRDC), indicates potential BBC savings between 
$2.5B and $3.0B over three Low Rate Initial Production (LRIP) lots 
starting in Lot 12. The cost savings from a BBC have been factored into 
the procurement cost savings in the F-35 Fiscal Year 2015 Selected 
Acquisition Report (SAR 2015).
    As the Department is exploring the possibility of a block buy, the 
F-35 International Partners and FMS customers are already considering a 
three-year BBC beginning with production Lot 12 (FY18), which requires 
EOQ funding in FY17. The risk of entering into a BBC in Lot 12 is low. 
By the time it is necessary to commit to a BBC in Lot 12, many aspects 
of the Program will be stable, including completion of durability 
testing, 98 percent completion of all hardware qualification, 
completion of majority of 3F software and weapons delivery testing, 
stable production processes and ramp-up.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. Why is the program office including follow-on 
modernization efforts (Block 4 upgrades) within the base F-35 
acquisition program? Is there a quantifiable benefit to not treat the 
Block 4 upgrades as a separate major development and acquisition 
program?
    General Bogdan. We estimate the documentation and approvals 
necessary to establish and start a new program Major Defense 
Acquisition Program (MDAP) will cost between $10 million and $13 
million and delay execution of Follow-on Modernization (FoM) six to 
twelve months. The F-35 Lightning II Joint Program is committed 100% to 
ensuring the FoM effort is as lean as possible so that the output--
capability to our warfighters--is maximized.
    The JPO will place FoM on a separate contract, establish a separate 
program baseline and require cost, schedule, and performance metrics--
to include Earned Value Management metrics and Nunn-McCurdy criteria--
on this separate FoM baseline. This contract structure will allow the 
JPO, Defense Contract Audit Agency and you the Congress and your staffs 
to have full insight into its costs, performance, and earned value--all 
the tools necessary for you to perform your oversight function. We are 
completely receptive to adding your specific reporting requirements 
that you believe are necessary. The JPO has no intent to ``bury'' the 
FoM program within the larger F-35 program to avoid performance 
monitoring and oversight--we just want to avoid unnecessary and costly 
effort. We can assure this openness and believe it is achievable 
without characterizing it as a new program.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. JONES
    Mr. Jones. What is the total cost of the F-35 program from its 
inception through FY 2016?
    Dr. Gilmore. Program costs are officially reported in the Selected 
Acquisition Reports (SAR), formally submitted by the Department. 
According to the December 2015 SAR for the F-35 (as of the FY 2017 
President's Budget), released in March, 2016, the ``Appropriation 
Summary'' table on page 28 shows that the total cost of the F-35 
program from inception through FY 2016 is $111,219.4M or $111.2B.
    Mr. Jones. What is the total cost of the F-35 program from its 
inception through the President's Budget request for FY2017?
    Dr. Gilmore. Program costs are officially reported in the Selected 
Acquisition Reports, formally submitted by the Department. The 
following answer is from the December 2015 SAR for the F-35 (as of the 
FY 2017 President's Budget), released in March, 2016. Per the 
``Appropriation Summary'' table on page 28, the total cost of the F-35 
program from inception through FY 2017 is $121,931M or $121.9B.
    Mr. Jones. What is the total cost of the F-35 program from its 
inception through FY 2016?
    Mr. Sullivan. By the end of fiscal year 2016, DOD will have 
invested a total of $59.02 billion in F-35 development and procurement. 
When the F-35 development program began in 2001 DOD estimated the total 
acquisition cost to be $233 billion (then-year). As of December 2015, 
the total program acquisition cost estimate had increased to $379 
billion (then-year), an increase of 62 percent.
    Mr. Jones. What is the total cost of the F-35 program from its 
inception through the President's budget request for FY2017?
    Mr. Sullivan. The total investment in F-35 development and 
procurement from program inception through the end of fiscal year 2017 
will be $69.14 billion, based on DOD's fiscal year 2017 budget request.
    Mr. Jones. What is the total cost of the F-35 program from its 
inception through FY 2016?
    General Bogdan and Secretary Stackley. $127.5B
    Appropriated through Fiscal Year (FY) 2016: Below reflects the 
total cost of the F-35 program from inception through FY16 to include 
United States Air Force (USAF), United States Marine Corps (USMC), 
United States Navy (USN) and the International Partners. System 
Development and Demonstration (SDD) includes Pre-SDD and International 
Partner contributions. Military Construction funds are not executed out 
of the Joint Program Office but are shown for completeness.
    The USMC declared Initial Operational Capability (IOC) with its F-
35Bs in July 2015 and USAF IOC is scheduled between 1 August and 31 
December 2016. The F-35 program completed Block 2B and Block 3i 
software. Block 3F software is now in Developmental Flight Test. The 
program completed Italian, Australian, and Dutch tanker aerial 
refueling flight test. Overall, the F-35 Fleet has over 51,000 flight 
hours and we recently completed the second trans-Atlantic flight in an 
F-35. The Fleet consist of 184 operational and test aircraft, and the 
program has procured a total of 203 US and International aircraft 
through Low Rate Initial Production (LRIP) Lot 8 and will contract for 
an additional 52 and 91 in LRIP Lots 9 and 10, respectively, by end of 
3rd quarter FY16.

 
----------------------------------------------------------------------------------------------------------------
                                                                             FY94-FY16
            Program / Appropriation                FY94-FY16 US  $M      International $M          Total $M
----------------------------------------------------------------------------------------------------------------
System Development and Demonstration             48,182                5,205                 53,387
Defense Wide (1994-1998)                         118                   0                     118
Deployability and Suitability                    287                   57                    344
Follow-on Modernization                          167                   51                    218
Procurement                                      55,879                14,303                70,182
Other Procurement Navy                           33                    0                     33
Operations and Maintenance                       1,482                 0                     1,482
Military Construction                            1,782                 0                     1,782
----------------------------------------------------------------------------------------------------------------
Total                                            107,930               19,616                127,546
----------------------------------------------------------------------------------------------------------------


    Mr. Jones. What is the total cost of the F-35 program from its 
inception through the President's budget request for FY2017?
    General Bogdan and Secretary Stackley. $144.7B
    Appropriated through Fiscal Year (FY) 2017: Below reflects the 
total cost of the F-35 program from inception through FY17 to include 
United States Air Force (USAF), United States Marine Corps (USMC), 
United States Navy (USN) and the International Partners. System 
Development and Demonstration (SDD) includes Pre-SDD and International 
Partner contributions. Military Construction funds are not executed out 
of the Joint Program Office but are shown for completeness.
    During FY17, the program will complete Block 3F Verification and 
Mission Effectiveness Testing and begin Block 3F introduction to F-35A. 
Also, the program will transition to leaner Follow-on Modernization for 
developing and delivering enhanced capability. The program will procure 
63 aircraft for the US Services as part of Low Rate Initial Production 
(LRIP) Lot 11 and we will continue to build the Global Sustainment 
Posture in order to best deliver the required cost and performance 
outcomes.

 
----------------------------------------------------------------------------------------------------------------
                                                                             FY94-FY17
            Program / Appropriation                FY94-FY17 US  $M      International $M          Total $M
----------------------------------------------------------------------------------------------------------------
System Development and Demonstration             49,596                5,227                 54,823
Defense Wide (1994-1998)                         118                   0                     118
Deployability and Suitability                    383                   67                    450
Follow-on Modernization                          458                   178                   636
Procurement                                      64,582                19,712                84,294
Other Procurement Navy                           36                    0                     36
Operations and Maintenance                       2,155                 0                     2,155
Military Construction                            2,354                 0                     2,354
----------------------------------------------------------------------------------------------------------------
Total                                            119,682               25,184                144,866
----------------------------------------------------------------------------------------------------------------

                                  [all]
</pre></body></html>
